  ""'Cl

                DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                      Office of Inspector General

,(.",,110	                                                                                   Washington , D. C.   20201

                                                        JUN 2 4 2005




       TO:	           Edwin L. Walker
                      Deputy Assistant Secretary for Policy and Programs
                      Administration on Aging
                               "1,
       FROM:          Brian P. Ritchie
                      Acting Deputy Inspector General
                         for Evaluation and Inspections

       SUBJECT:	 Performance Data for the Senior Medicare Patrol Projects: June 2005
                      Performance Report (OEI- 02-04- 00361)


       The Administration on Aging (AoA) requested the Offce of Inspector General (OIG) to collect
       performance data from the Senior Medicare Patrol Projects. These projects receive grants from
       AoA to recruit retired professionals to serve as educators and resources in assisting beneficiaries to
       detect and report fraud , waste , and abuse in the Medicare program. A total of 57 projects operated
       from July through December 2004. At least 1 project is located in each of the 50 States , the
       District of Columbia , and Puerto Rico.

      In the 6 months from July through December 2004 , the 57 projects educated 179 603 beneficiaries
      in 79 727 group training sessions and one-on-one sessions. As a result of educating beneficiaries
      the projects received 6 338 complaints , of which 559 were referred to Medicare contractors for
      followup. A total of 328 complaints resulted in money recouped to the Medicare program or some
      other action taken by the Medicare contractor or investigative agency. In total , the projects
      documented $27 281 recouped to the Medicare program. The projects also reported $17 109 in
      savings to the Medicaid program and $149 143 in savings to beneficiaries. A total of $9 374 of the
      reported savings to beneficiaries was documented.

      In February 1999 , OIG issued a report on the projects ' first- year performance data (OEI- 02-97­
      00522). OIG has since released reports on these performance data for each subsequent 6-month
      period. Since the inception of the program 8 years ago , a total of62 projects (5 of which closed
      between June 2002 and December 2003) have educated approximately 2 million beneficiaries in
      535 139 group training sessions and one-on-one sessions. As a result of educating beneficiaries
      the projects received 47 085 complaints , of which 4 365 resulted in some action. Total savings to
      the Medicare program attributable to the projects are $3 972 848. Self-reported savings to
      beneficiaries , Medicaid , and other payers were approximately $100 million. Most of the
      $100 milion in savings is the result of one project' s involvement in adjustments to Medicaid
      claims for individuals entitled to both Medicaid and Medicare. The appendixes contain more
      information on the performance of each grantee.
Page 2 – Edwin L. Walker

We continue to emphasize that the number of beneficiaries who have learned to detect fraud,
waste, and abuse from the Senior Medicare Patrol Projects, and who subsequently call the OIG
fraud hotline or other contacts, cannot be tracked. Therefore, the projects may not be receiving full
credit for savings attributable to their work. In addition, substantial savings, which cannot be
tracked, may be derived from a sentinel effect whereby fraud and errors are reduced in light of
Medicare beneficiaries’ scrutiny of their bills.

The Centers for Medicare & Medicaid Services developed a tracking system that requires all
contractors to provide semiannual reports of all complaints initiated by the Senior Medicare Patrol
Projects. We requested that each project director submit all tracking reports and correspondence
they may have received from the contractors, regardless of whether actual savings occurred. In the
6 months from July through December 2004, we received such documentation for 22 of the
57 projects. Sixteen of these twenty-two project directors submitted at least one tracking system
report. We received letters or e-mail correspondence from contractors to the grantees for the other
six. Eight of the sixteen project directors submitted tracking system reports that included
documented savings to the Medicare program.

We will continue to monitor the projects and provide you with summary reports of performance
data. If you have any questions, please call me at (202) 619-0480 or you may contact Jodi
Nudelman, Acting Regional Inspector General for Evaluation and Inspections, New York region,
at (212) 264-2000.

Attachments:
Appendix A - Summary of Performance for All Projects Since 1997
Appendix B - Summary of Performance for All Projects for 2004
Appendix C - Projects’ Results for Each Performance Measure
Appendix D - Individual Project Results for 2004
      Senior Medicare Patrol Projects’ Performance Measure Results 




                               List of Appendixes
                                                                             Page


Appendix A: Summary of Performance for All Projects Since 1997………………………………...4 


Appendix B: Summary of Performance for All Projects for 2004…………………………….…......6 


Appendix C: Projects’ Results for Each Performance Measure……………...………………………8 


Appendix D: Individual Project Results for 2004………………………………………………..….26 





                                                                                3
Δ       A P P E N D I X                ~     A



                              Summary of Performance for All Projects Since 1997

The following table provides the overall performance measure results for all 62 projects that have ever operated since 1997. 


Cumulative totals since 1997 are no longer reported for performance measure 9. 


Total savings to Medicaid, beneficiaries, and other entities were not broken out prior to July 2003. Therefore, this table does not 

contain data for performance measures 15A, 15B, and 15C.





                                                                                                                                        4
  A   P    P E N D       I X ~     A      





                             Summary of Peformance for All Projects Since 1997
                                              OUTPUT MEASURES
       1   Number of training sessions conducted to train new volunteers                                        7,338
       2   Number of new volunteers trained                                                                    48,351
       3   Number of media events conducted                                                                  117,117
       4   Number of community education events conducted                                                      29,429
                                              OUTCOME MEASURES
       5   Number of volunteers who, for the first time, conducted activities to educate beneficiaries         18,299
       6   Number of group sessions for beneficiaries led by volunteers                                        38,757
       7   Number of beneficiaries who attended group sessions led by volunteers                            1,496,829
       8   Number of one-on-one sessions held between beneficiaries and volunteers                           496,382
  7+8      Total number of beneficiaries educated                                                           1,993,211
       9   Estimated number of people reached by media events                                                     NA
      10   Estimated number of people reached by community education events                                15,158,169
      11   Number of complaints received attributable to the project                                           47,085
      12   Number of complaints referred for followup                                                           9,467
      13   Number of complaints that resulted in some action                                                    4,365
      14   Medicare funds recovered attributable to the project                                            $3,972,848
   15A     Medicaid funds recovered attributable to the project                                                   NA
   15B     Savings to beneficiaries attributable to the project                                                   NA
   15C     Other savings attributable to the project                                                              NA
TOTAL
   15      Total Medicaid funds, beneficiary savings, and other savings                                  $100,181,686
14 + 15    Total savings attributable to the project                                                     $104,154,534



                                                                                                                   5
 Δ        A P P E N D I X               ~     B




                                Summary of Performance for All Projects for 2004

The following table provides data for the 57 projects that operated in 2004.




                                                                                   6
A P P E N D          I X ~ B 





                                Summary of Performance for All Projects for 2004
                                                                                          January              July through
                                                                                       through June             December              Total for 2004
                                  OUTPUT MEASURES
           1   Number of training sessions conducted to train new volunteers                         648                     580                  1,228
           2   Number of new volunteers trained                                                    3,380                   2,725                  6,105
           3   Number of media events conducted                                                   16,815                   7,931                 24,746
           4   Number of community education events conducted                                      3,733                   3,550                  7,283
                                 OUTCOME MEASURES
           5   Number of volunteers who, for the first time, conducted activities
               to educate beneficiaries                                                             1,845                    985                   2,830
           6   Number of group sessions for beneficiaries led by volunteers                         4,704                  2,999                   7,703
           7   Number of beneficiaries who attended group sessions led by
               volunteers                                                                       170,170                 102,875                 273,045
           8   Number of one-on-one sessions held between beneficiaries and
               volunteers                                                                        77,826                  76,728                 154,554
       7+8     Total number of beneficiaries educated                                           247,996                 179,603                 427,599
          9    Estimated number of people reached by media events                      1,479,857,9511               45,466,817                        NA
         10    Estimated number of people reached by community education
               events                                                                           641,430                491,871               1,133,301
        11     Number of complaints received attributable to the project                          2,984                  6,338                   9,322
        12     Number of complaints referred for followup                                           522                    559                   1,081
        13     Number of complaints that resulted in some action                                    195                    328                     523
        14     Medicare funds recovered attributable to the project                             $42,223                $27,281                 $69,504
      15A      Medicaid funds recovered attributable to the project                            $200,000                $17,109                $217,109
      15B      Savings to beneficiaries attributable to the project                            $206,867               $149,143                $356,010
      15C      Other savings attributable to the project                                        $29,037                   $900                 $29,937
 TOTAL 15      Total Medicaid funds, beneficiary savings, and other savings                    $435,904               $167,152                $603,056
   14 + 15     Total savings attributable to the project                                       $478,127               $194,433                $672,560

 1
  Prior to July 2004, some grantees calculated performance measure 9, “Estimated number of people reached by media events,” by adding the estimated number
 of people reached each time an advertisement was aired or printed, causing duplication. Due to this discrepancy, the numbers are not totaled.
                                                                                                                                                             7
Δ      A P P E N D I X               ~    C


                                Projects’ Results for Each Performance Measure

The following tables provide the results for each performance measure for each of the 57 Senior Medicare Patrol Projects.

For the July 2004 through December 2004 reporting period, grantees were asked to calculate performance measure 9, “Estimated
number of people reached by media events,” as the unduplicated count of people exposed to a particular media event. Therefore, if
the media event is an aired or printed advertisement, the estimated number of people reached is counted once, regardless of how often
the advertisement runs. Prior to the current reporting period, some grantees counted these events differently.




                                                                                                                                    8
A    P     P E N D     I X ~    C        


                  PERFORMANCE MEASURE 1: Number of Training Sessions Conducted to Train New Volunteers
                       Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                      42                        20                  62   Nebraska                           3                 4                7
    Alaska                       13                        2                   15   Nevada                             4                 3                7
    Arizona                      19                        74                  93   New Hampshire                      1                 0                1
    Arkansas                         4                     9                   13   New Jersey                         1                 0                1
    California                       6                     2                   8    New Mexico                     14                24               38
    Colorado                         1                     0                   1    New York                       56                28               84
    Connecticut                  16                        4                   20   North Carolina                 16                    2            18
    Delaware                         3                     1                   4    North Dakota                   10                    1            11
    DC – AARP                        0                     1                   1    Ohio – COAAA                       0                 1                1
    DC – FH                          5                     5                   10   Ohio – PSI                         1                 0                1
    Florida                          2                     1                   3    Oklahoma                       10                    1            11
    Georgia – ARC                    2                     3                   5    Oregon                         16                    4            20
    Georgia – DHR                    4                     6                   10   Pennsylvania                       1                 1                2
    Hawaii                           8                     2                   10   Puerto Rico                        4                 5                9
    Idaho                        13                        8                   21   Rhode Island                       0                 1                1
    Illinois                     12                        4                   16   South Carolina                     4                 1                5
    Indiana                          7                     9                   16   South Dakota                       0                 1                1
    Iowa                             6                     7                   13   Tennessee                          3             10               13
    Kansas                           2                     0                   2    Texas – BBBEF                      0                 0                0
    Kentucky                     14                        9                   23   Texas – NHCOA                  42                    8            50
    Louisiana                        2                     3                   5    Utah                               6             19               25
    Maine                        19                        5                   24   Vermont                            2                 2                4
    Maryland                     18                        24                  42   Virginia                           4                 2                6
    Massachusetts                    8                     7                   15   Washington                     162              204              366
    Michigan                         2                     5                   7    West Virginia                      1                 1                2
    Minnesota                        4                     16                  20   WI – CWAG                          8                 3            11
    Mississippi                  33                        15                  48   WI – GLITC                         1                 1                2
    Missouri                         8                     1                   9    Wyoming                            1                 1                2
    Montana                          4                     9                   13

                 PERFORMANCE MEASURE 1                          January – June                   July – December                    Total 2004
                                TOTAL                                648                                580                           1,228


                                                                                                                                                              9
A    P     P E N D     I X ~    C        



                                PERFORMANCE MEASURE 2: Number of New Volunteers Trained
                       Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                     218                    116                 334      Nebraska                       11                19               30
    Alaska                           2                 127                 129      Nevada                             1                 3                4
    Arizona                      39                        30                  69   New Hampshire                  36                    3            39
    Arkansas                     14                        54                  68   New Jersey                     35                    0            35
    California                  187                        70              257      New Mexico                     15                14               29
    Colorado                         5                     0                   5    New York                       264              692              956
    Connecticut                 226                        50              276      North Carolina                 75                    6            81
    Delaware                     19                        2                   21   North Dakota                   57                    7            64
    DC – AARP                        0                     5                   5    Ohio – COAAA                       0             18               18
    DC – FH                          4                     3                   7    Ohio – PSI                         7                 0                7
    Florida                      34                        4                   38   Oklahoma                       237                   4           241
    Georgia – ARC                    5                     5                   10   Oregon                         71                50              121
    Georgia – DHR                36                        30                  66   Pennsylvania                       5                 7            12
    Hawaii                       59                        12                  71   Puerto Rico                        6             15               21
    Idaho                        19                        7                   26   Rhode Island                       0                 2                2
    Illinois                         6                     16                  22   South Carolina                 15                    2            17
    Indiana                     131                        63              194      South Dakota                       0                 2                2
    Iowa                             6                     32                  38   Tennessee                      55                39               94
    Kansas                       58                        0                   58   Texas – BBBEF                      0                 0                0
    Kentucky                     45                        8                   53   Texas – NHCOA                  53                83              136
    Louisiana                    98                        76              174      Utah                           288              176              464
    Maine                        25                        23                  48   Vermont                            5             19               24
    Maryland                         4                 407                 411      Virginia                       27                    7            34
    Massachusetts                40                        77              117      Washington                     268               84              352
    Michigan                     13                        22                  35   West Virginia                  25                    2            27
    Minnesota                    65                        44              109      WI – CWAG                      89                49              138
    Mississippi                 262                        27              289      WI – GLITC                         6             52               58
    Missouri                     90                        6                   96   Wyoming                        11                    6            17
    Montana                          8                     48                  56

                 PERFORMANCE MEASURE 2                          January – June                   July – December                     Total 2004
                                TOTAL                               3,380                             2,725                            6,105


                                                                                                                                                              10
A    P     P E N D     I X ~    C        



                                PERFORMANCE MEASURE 3: Number of Media Events Conducted
                       Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.        Total 2004
    Alabama                      95                        76               171     Nebraska                         81              24               105
    Alaska                           7                      2                  9    Nevada                           12                  6             18
    Arizona                      24                        28                  52   New Hampshire                    16              18                34
    Arkansas                     17                        19                  36   New Jersey                         0                 3                 3
    California                   26                        17                  43   New Mexico                         9             15                24
    Colorado                         7                     33                  40   New York                         63              17                80
    Connecticut                  30                        12                  42   North Carolina                   14              10                24
    Delaware                    171                        11               182     North Dakota                     14              32                46
    DC – AARP                        2                      2                  4    Ohio – COAAA                    165             175               340
    DC – FH                          4                      5                  9    Ohio – PSI                      627             556              1,183
    Florida                      40                        38                  78   Oklahoma                           9            906               915
    Georgia – ARC                25                        18                  43   Oregon                           20                  3             23
    Georgia – DHR                    7                     24                  31   Pennsylvania                       8                 4             12
    Hawaii                           2                      9                  11   Puerto Rico                     491                  6            497
    Idaho                        29                        35                  64   Rhode Island                   1,281          1,227              2,508
    Illinois                   1,219                       32             1,251     South Carolina                     2             13                15
    Indiana                     143                        16               159     South Dakota                     13                  2             15
    Iowa                       2,064                 2,249                4,313     Tennessee                        49              53               102
    Kansas                           4                      6                  10   Texas – BBBEF                      3                 4                 7
    Kentucky                    252                        61               313     Texas – NHCOA                    14              26                40
    Louisiana                        4                     49                  53   Utah                               2                 9             11
    Maine                        65                    117                  182     Vermont                            4                 6             10
    Maryland                     56                    427                  483     Virginia                         28              39                67
    Massachusetts                58                    201                  259     Washington                      124              83               207
    Michigan                     10                        1                   11   West Virginia                      8             28                36
    Minnesota                    10                        2                   12   WI – CWAG                      1,160             66              1,226
    Mississippi                1,910                  627                 2,537     WI – GLITC                         3             10                13
    Missouri                         9                     13                  22   Wyoming                            4                 3                 7
    Montana                    6,301                  457                 6,758

                 PERFORMANCE MEASURE 3                          January – June                   July – December                     Total 2004
                                TOTAL                              16,815                            7,931                               24,746


                                                                                                                                                               11
A   P   P E N D       I X ~   C          



                      PERFORMANCE MEASURE 4: Number of Community Education Events Conducted
                       Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                       198                  254                 452      Nebraska                       62                68              130
    Alaska                        13                       15                  28   Nevada                         20                17               37
    Arizona                       144                      97              241      New Hampshire                  52                78              130
    Arkansas                      30                       26                  56   New Jersey                     10                12               22
    California                    52                       64              116      New Mexico                     56               105              161
    Colorado                      31                       35                  66   New York                       115               33              148
    Connecticut                   116                      78              194      North Carolina                 55                27               82
    Delaware                      17                       8                   25   North Dakota                       2             14               16
    DC – AARP                        8                     13                  21   Ohio – COAAA                   203               50              253
    DC – FH                       20                       16                  36   Ohio – PSI                     26                15               41
    Florida                       64                       16                  80   Oklahoma                       32                47               79
    Georgia – ARC                 41                       7                   48   Oregon                         93                39              132
    Georgia – DHR                 55                       72              127      Pennsylvania                   21                47               68
    Hawaii                           9                     14                  23   Puerto Rico                    22                                 51
                                                                                                                                    29
    Idaho                         85                       95              180      Rhode Island                       7                 6            13
    Illinois                      276                      49              325      South Carolina                 11                24               35
    Indiana                       87                       75              162      South Dakota                   63                15               78
    Iowa                          112                  132                 244      Tennessee                      107              121              228
    Kansas                           2                     2                   4    Texas – BBBEF                  64               167              231
    Kentucky                      75                       38              113      Texas – NHCOA                  78                26              104
    Louisiana                     12                       69                  81   Utah                           37                30               67
    Maine                         59                       84              143      Vermont                        28                22               50
    Maryland                      53                   329                 382      Virginia                       153              121              274
    Massachusetts                 250                  503                 753      Washington                     45                49               94
    Michigan                      50                       8                   58   West Virginia                      8             33               41
    Minnesota                     212                      65              277      WI – CWAG                      10                31               41
    Mississippi                   170                      76              246      WI – GLITC                     22                18               40
    Missouri                         8                     30                  38   Wyoming                        16                    9            25
    Montana                       66                       27                  93

                 PERFORMANCE MEASURE 4                          January – June                   July – December                     Total 2004
                                TOTAL                               3,733                             3,550                            7,283


                                                                                                                                                           12
A    P     P E N D     I X ~    C        


         PERFORMANCE MEASURE 5: Number of Volunteers Who, for the First Time, Conducted Activities to Educate
                                              Beneficiaries
                       Jan. - June           July - Dec.          Total 2004                             Jan. - June        July – Dec.       Total 2004
    Alabama                      46                        35                  81   Nebraska                        34                29               63
    Alaska                           2                 127                 129      Nevada                              0                 3                3
    Arizona                      39                        29                  68   New Hampshire                       5                 1                6
    Arkansas                     10                        25                  35   New Jersey                          3                 0                3
    California                   16                        22                  38   New Mexico                      15                14               29
    Colorado                         6                     3                   9    New York                       420               256              676
    Connecticut                  18                        3                   21   North Carolina                      4                 3                7
    Delaware                     12                        4                   16   North Dakota                    10                    4            14
    DC – AARP                        0                     0                   0    Ohio – COAAA                        9             29               38
    DC – FH                          2                     2                   4    Ohio – PSI                          7                 0                7
    Florida                          7                     7                   14   Oklahoma                        11                    0            11
    Georgia – ARC                    3                     5                   8    Oregon                                            50              121
                                                                                                                   71
    Georgia – DHR                    8                     8                   16   Pennsylvania                        5                 3                8
    Hawaii                           5                     0                   5    Puerto Rico                         2                 1                3
    Idaho                        11                        3                   14   Rhode Island                        0                 2                2
    Illinois                     86                        7                   93   South Carolina                      0                 0                0
    Indiana                          7                     6                   13   South Dakota                        5                 6            11
    Iowa                             6                     32                  38   Tennessee                       55                16               71
    Kansas                           6                     0                   6    Texas – BBBEF                       0                 0                0
    Kentucky                     29                        6                   35   Texas – NHCOA                   17                    0            17
    Louisiana                        2                     41                  43   Utah                           345                56              401
    Maine                        13                        5                   18   Vermont                             0                 0                0
    Maryland                         0                     1                   1    Virginia                            4                 2                6
    Massachusetts                17                        3                   20   Washington                     268                84              352
    Michigan                     15                        0                   15   West Virginia                       0                 5                5
    Minnesota                        3                     8                   11   WI – CWAG                           4                 8            12
    Mississippi                  63                        15                  78   WI – GLITC                          0                 0                0
    Missouri                     90                        6                   96   Wyoming                             5                 2                7
    Montana                      24                        8                   32


                 PERFORMANCE MEASURE 5                          January – June                   July – December                     Total 2004
                                TOTAL                               1,845                               985                            2,830
                                                                                                                                                               13
A    P     P E N D     I X ~    C        



                   PERFORMANCE MEASURE 6: Number of Group Sessions for Beneficiaries Led by Volunteers
                       Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                     309                    164                 473      Nebraska                       67               108              175
    Alaska                           0                     10                  10   Nevada                         14                11               25
    Arizona                          7                     24                  31   New Hampshire                  48                    7            55
    Arkansas                     44                        45                  89   New Jersey                     64                68              132
    California                  207                        53              260      New Mexico                     38                97              135
    Colorado                     92                        46              138      New York                       145               59              204
    Connecticut                  16                        10                  26   North Carolina                 15                15               30
    Delaware                     57                        64              121      North Dakota                       0                 4                4
    DC – AARP                    29                        19                  48   Ohio – COAAA                   40                38               78
    DC – FH                      16                        7                   23   Ohio – PSI                     57                41               98
    Florida                      14                        33                  47   Oklahoma                       11                    0            11
    Georgia – ARC               109                        46              155      Oregon                         76                41              117
    Georgia – DHR                15                        15                  30   Pennsylvania                   166              103              269
    Hawaii                       45                        25                  70   Puerto Rico                    77                58              135
    Idaho                       149                    147                 296      Rhode Island                   27                10               37
    Illinois                    214                        73              287      South Carolina                 94                64              158
    Indiana                      88                        19              107      South Dakota                       6                 3                9
    Iowa                        325                    241                 566      Tennessee                      120              123              243
    Kansas                           6                     0                   6    Texas – BBBEF                  17                    7            24
    Kentucky                    292                    147                 439      Texas – NHCOA                  40                25               65
    Louisiana                        5                     75                  80   Utah                           26                38               64
    Maine                       155                    137                 292      Vermont                            0                 0                0
    Maryland                    205                        1               206      Virginia                       83                30              113
    Massachusetts                    0                 205                 205      Washington                     289              132              421
    Michigan                     44                        23                  67   West Virginia                      0             10               10
    Minnesota                    34                        7                   41   WI – CWAG                      77                52              129
    Mississippi                 445                    106                 551      WI – GLITC                         0                 0                0
    Missouri                     38                        9                   47   Wyoming                            8                 6            14
    Montana                     139                        98              237

                 PERFORMANCE MEASURE 6                          January – June                   July – December                     Total 2004
                                TOTAL                               4,704                             2,999                            7,703


                                                                                                                                                              14
A    P     P E N D     I X ~    C        



            PERFORMANCE MEASURE 7: Number of Beneficiaries Who Attended Group Sessions Led by Volunteers
                       Jan. - June           July - Dec.         Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                  13,505                11,032              24,537      Nebraska                       1,938          3,350             5,288
    Alaska                           0                 100                100      Nevada                         1,050            210             1,260
    Arizona                    4,056                 1,140               5,196     New Hampshire                  1,174            374             1,548
    Arkansas                   1,668                 1,029               2,697     New Jersey                     4,291          3,945             8,236
    California                 7,977                 1,590               9,567     New Mexico                     1,140          7,682             8,822
    Colorado                   2,232                 1,637               3,869     New York                       3,393          1,885             5,278
    Connecticut                 467                    482                949      North Carolina                  391             665             1,056
    Delaware                   1,179                 1,179               2,358     North Dakota                       0            116              116
    DC – AARP                   756                    645               1,401     Ohio – COAAA                    985             708             1,693
    DC – FH                     441                    400                841      Ohio – PSI                     1,375            958             2,333
    Florida                     885                    976               1,861     Oklahoma                        200                  0           200
    Georgia – ARC              2,771                 1,323               4,094     Oregon                     12,442               816           13,258
    Georgia – DHR               410                    415                825      Pennsylvania               11,876             2,967           14,843
    Hawaii                     1,683                 1,611               3,294     Puerto Rico                    2,172          1,794             3,966
    Idaho                      1,210                 4,478               5,688     Rhode Island                    405             212              617
    Illinois                 12,562                  2,968             15,530      South Carolina                 2,464          1,780             4,244
    Indiana                    2,178                  302                2,480     South Dakota                    320             350              670
    Iowa                       6,272                 7,973             14,245      Tennessee                      7,585          8,506           16,091
    Kansas                       75                        0                  75   Texas – BBBEF                   721             139              860
    Kentucky                   8,828                 4,497             13,325      Texas – NHCOA                  1,670          1,650             3,320
    Louisiana                    47                  1,482               1,529     Utah                           1,015            705             1,720
    Maine                      2,666                 2,807               5,473     Vermont                            0                 0                0
    Maryland                   6,922                       0             6,922     Virginia                       3,921            464             4,385
    Massachusetts                    0                     0                   0   Washington                 12,000             6,279           18,279
    Michigan                   1,829                 1,145               2,974     West Virginia                      0            241              241
    Minnesota                    61                    251                312      WI – CWAG                      3,946          1,982             5,928
    Mississippi                7,772                 1,945               9,717     WI – GLITC                         0                 0                0
    Missouri                   1,164                  191                1,355     Wyoming                         176             206              382
    Montana                    3,904                 3,293               7,197

                 PERFORMANCE MEASURE 7                         January – June                   July – December                     Total 2004
                                TOTAL                             170,170                           102,875                          273,045


                                                                                                                                                             15
A    P     P E N D     I X ~    C        



           PERFORMANCE MEASURE 8: Number of One-on-One Sessions Held Between Beneficiaries and Volunteers
                       Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                    5,828                  961                 6,789     Nebraska                        234             357              591
    Alaska                           1                     25                  26   Nevada                           12              65               77
    Arizona                      23                        30                  53   New Hampshire                  2,813          1,881             4,694
    Arkansas                         3                     57                  60   New Jersey                      150             250              400
    California                   18                        68                  86   New Mexico                 14,974            17,957           32,931
    Colorado                     56                        39                  95   New York                       5,593          5,441           11,034
    Connecticut                  13                        16                  29   North Carolina                   17                  8            25
    Delaware                     96                        16              112      North Dakota                     20              10               30
    DC – AARP                        0                     0                   0    Ohio – COAAA                    236             628              864
    DC – FH                     707                        40              747      Ohio – PSI                       19              22               41
    Florida                      49                        2                   51   Oklahoma                         10                  0            10
    Georgia – ARC               226                    266                 492      Oregon                          285           2,261             2,546
    Georgia – DHR                    3                     84                  87   Pennsylvania                    471             137              608
    Hawaii                           2                     0                   2    Puerto Rico                     360             324              684
    Idaho                       647                    418                1,065     Rhode Island                       0                 0                0
    Illinois                    100                        6               106      South Carolina                     7            100              107
    Indiana                     123                    240                 363      South Dakota                    162             124              286
    Iowa                         31                        52                  83   Tennessee                       169           1,043             1,212
    Kansas                       24                        15                  39   Texas – BBBEF                    28                  5            33
    Kentucky                   1,853                 1,325                3,178     Texas – NHCOA                   364             116              480
    Louisiana                    89                    399                 488      Utah                            455             417              872
    Maine                       346                    436                 782      Vermont                            0                 0                0
    Maryland                   1,648                 1,318                2,966     Virginia                           0                 0                0
    Massachusetts              6,320               13,487               19,807      Washington                 29,636            23,179           52,815
    Michigan                     11                        13                  24   West Virginia                      0                 3                3
    Minnesota                        7                     11                  18   WI – CWAG                        13              39               52
    Mississippi                1,882                  307                 2,189     WI – GLITC                         0                 0                0
    Missouri                     81                    110                 191      Wyoming                         842             921             1,763
    Montana                     769                  1,699                2,468

                 PERFORMANCE MEASURE 8                          January – June                   July – December                     Total 2004
                                TOTAL                              77,826                             76,728                          154,554


                                                                                                                                                              16
A    P     P E N D     I X ~    C      



                      PERFORMANCE MEASURE 9: Estimated Number of People Reached by Media Events
                       Jan. - June         July - Dec.       Total 2004                          Jan. - June       July - Dec.      Total 2004
    Alabama                 402,426           1,053,768                NA   Nebraska                2,849,444           624,811              NA
    Alaska                  500,000             500,000                NA   Nevada                    135,000             6,000              NA
    Arizona                  47,768              10,333                NA   New Hampshire             300,000           300,000              NA
    Arkansas                737,428             257,200                NA   New Jersey                         0        750,000              NA
    California            6,011,000           4,413,000                NA   New Mexico                325,000           494,000              NA
    Colorado                149,200             489,000                NA   New York                  452,700           252,000              NA
    Connecticut             619,372             593,000                NA   North Carolina            231,218            44,300              NA
    Delaware             11,000,000             600,000                NA   North Dakota              100,000            27,450              NA
    DC – AARP            18,000,000             690,000                NA   Ohio – COAAA            1,205,879           650,000              NA
    DC – FH               1,248,535              17,000                NA   Ohio – PSI              3,133,121         3,123,413              NA
    Florida               3,066,896           1,773,533                NA   Oklahoma                  307,005           271,000              NA
    Georgia – ARC           279,850             109,500                NA   Oregon                  3,209,414            23,000              NA
    Georgia – DHR           391,725             582,186                NA   Pennsylvania            1,106,210           200,000              NA
    Hawaii                  500,000             420,000                NA   Puerto Rico             1,055,300           425,000              NA
    Idaho                   395,970             308,502                NA   Rhode Island            6,300,000         7,000,000              NA
    Illinois                763,736           2,221,000                NA   South Carolina             51,091            16,729              NA
    Indiana               1,428,266              88,769                NA   South Dakota                   1,151         14,184              NA
    Iowa               1,383,664,631          1,896,846                NA   Tennessee               3,640,893           727,526              NA
    Kansas                     8,000             27,500                NA   Texas – BBBEF             200,000            27,038              NA
    Kentucky              4,734,027             879,961                NA   Texas – NHCOA             653,000         2,300,000              NA
    Louisiana               100,000              31,200                NA   Utah                            300           3,227              NA
    Maine                 1,205,839           1,467,356                NA   Vermont                   193,000           134,204              NA
    Maryland                446,952             104,100                NA   Virginia                1,274,413         1,475,200              NA
    Massachusetts           300,000           3,794,987                NA   Washington              5,488,404           920,721              NA
    Michigan              1,070,771              10,000                NA   West Virginia           1,317,579         1,769,380              NA
    Minnesota               979,687                5,500               NA   WI – CWAG               6,028,020            58,837              NA
    Mississippi             953,075             391,065                NA   WI – GLITC                      519           7,404              NA
    Missouri                271,500             300,000                NA   Wyoming                   105,015            55,330              NA
    Montana                 917,621             730,757                NA

                 PERFORMANCE MEASURE 9                     January – June                July – December                     Total 2004
                                TOTAL                      1,479,857,951                   45,466,817                           NA


                                                                                                                                                  17
A    P     P E N D     I X ~    C      



               PERFORMANCE MEASURE 10: Estimated Number of People Reached by Community Education Events
                       Jan. - June         July - Dec.          Total 2004                           Jan. - June       July - Dec.      Total 2004
    Alabama                  72,503              72,941              145,444    Nebraska                   23,466             9,366           32,832
    Alaska                      130                  200                 330    Nevada                     10,455             4,070           14,525
    Arizona                    9,671               9,319              18,990    New Hampshire              10,800            10,200           21,000
    Arkansas                   2,425               2,771                5,196   New Jersey                     5,750          8,850           14,600
    California               23,768                5,894              29,662    New Mexico                 18,715            47,021           65,736
    Colorado                    836                1,439                2,275   New York                   15,501             7,115           22,616
    Connecticut              13,287                4,187              17,474    North Carolina             12,496             2,690           15,186
    Delaware                   1,829               2,827                4,656   North Dakota                    141           2,585            2,726
    DC – AARP                  6,150               9,860              16,010    Ohio – COAAA               64,259            10,000           74,259
    DC – FH                  85,000                 650               85,650    Ohio – PSI                      703           3,336            4,039
    Florida                    5,435               1,146                6,581   Oklahoma                       9,317          4,697           14,014
    Georgia – ARC              3,430                596                 4,026   Oregon                          994           4,615            5,609
    Georgia – DHR              4,773               6,494              11,267    Pennsylvania                   1,226         11,443           12,669
    Hawaii                     4,200             10,500               14,700    Puerto Rico                    1,167          2,151            3,318
    Idaho                      9,649               5,031              14,680    Rhode Island               15,000            11,000           26,000
    Illinois                 19,462              11,303               30,765    South Carolina                 3,950          4,207            8,157
    Indiana                    9,470             30,650               40,120    South Dakota                   1,859            380            2,239
    Iowa                       3,767               9,732              13,499    Tennessee                  17,644            45,567           63,211
    Kansas                     1,000                     80             1,080   Texas – BBBEF                  2,885          2,935            5,820
    Kentucky                   5,291               3,354                8,645   Texas – NHCOA                  2,745          7,370           10,115
    Louisiana                   244                2,950                3,194   Utah                           1,496          7,030            8,526
    Maine                      5,397             13,541               18,938    Vermont                         415             772            1,187
    Maryland                   8,804               5,766              14,570    Virginia                   38,862             4,294           43,156
    Massachusetts            20,000              25,437               45,437    Washington                 13,415            10,088           23,503
    Michigan                    475                  423                 898    West Virginia                  3,360          5,368            8,728
    Minnesota                11,965                2,072              14,037    WI – CWAG                      1,125         11,866           12,991
    Mississippi              25,724                4,917              30,641    WI – GLITC                      585           1,705            2,290
    Missouri                   1,000               2,400                3,400   Wyoming                         511             310             821
    Montana                    6,903               4,360              11,263

               PERFORMANCE MEASURE 10                         January – June                 July – December                     Total 2004
                               TOTAL                             641,430                         491,871                         1,133,301


                                                                                                                                                       18
A    P     P E N D    I X ~    C        



                  PERFORMANCE MEASURE 11: Number of Complaints Received Attributable to the Project
                      Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                    365                    612                 977      Nebraska                       11                12               23
    Alaska                          1                     3                   4    Nevada                         55                11               66
    Arizona                     78                        41              119      New Hampshire                  25                    5            30
    Arkansas                    39                        50                  89   New Jersey                     19                44               63
    California                  21                        68                  89   New Mexico                     42             2,912             2,954
    Colorado                        8                     5                   13   New York                       218              200              418
    Connecticut                 43                        18                  61   North Carolina                 72                21               93
    Delaware                        7                     16                  23   North Dakota                       0                 0                0
    DC – AARP                   27                        48                  75   Ohio – COAAA                       7                 3            10
    DC – FH                     25                        5                   30   Ohio – PSI                         4                 3                7
    Florida                     75                        11                  86   Oklahoma                           5             13               18
    Georgia – ARC               11                        16                  27   Oregon                             0                 4                4
    Georgia – DHR                   7                     18                  25   Pennsylvania                   338              148              486
    Hawaii                      25                        0                   25   Puerto Rico                    35                65              100
    Idaho                      649                    626                1,275     Rhode Island                       7                 5            12
    Illinois                    19                        3                   22   South Carolina                     1                 2                3
    Indiana                         4                     10                  14   South Dakota                       0                 5                5
    Iowa                        44                        52                  96   Tennessee                      32                14               46
    Kansas                          2                     1                   3    Texas – BBBEF                  35                20               55
    Kentucky                   154                        22              176      Texas – NHCOA                  86                58              144
    Louisiana                       5                     9                   14   Utah                           40                14               54
    Maine                       15                        1                   16   Vermont                            1                 3                4
    Maryland                    21                    407                 428      Virginia                       26                23               49
    Massachusetts                   5                 522                 527      Washington                         5             10               15
    Michigan                    11                        0                   11   West Virginia                      0                 5                5
    Minnesota                   14                        31                  45   WI – CWAG                      30                22               52
    Mississippi                 85                        59              144      WI – GLITC                         0                 0                0
    Missouri                        5                     8                   13   Wyoming                        15                    4            19
    Montana                    110                        50              160

               PERFORMANCE MEASURE 11                          January – June                   July – December                     Total 2004
                               TOTAL                               2,984                             6,338                            9,322


                                                                                                                                                             19
A    P     P E N D    I X ~    C        



                        PERFORMANCE MEASURE 12: Number of Complaints Referred for Followup
                      Jan. - June           July - Dec.          Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                     83                    100                 183      Nebraska                           4                 7            11
    Alaska                          1                     0                   1    Nevada                         11                    1            12
    Arizona                         7                     2                   9    New Hampshire                      0                 0                0
    Arkansas                        9                     22                  31   New Jersey                         0                 2                2
    California                  18                        38                  56   New Mexico                     30                54               84
    Colorado                        2                     1                   3    New York                       36                64              100
    Connecticut                 23                        3                   26   North Carolina                 10                    3            13
    Delaware                        1                     4                   5    North Dakota                       0                 0                0
    DC – AARP                       0                     1                   1    Ohio – COAAA                       7                 2                9
    DC – FH                         0                     0                   0    Ohio – PSI                         0                 0                0
    Florida                         3                     1                   4    Oklahoma                           5                 4                9
    Georgia – ARC                   9                     5                   14   Oregon                             0                 0                0
    Georgia – DHR                   4                     12                  16   Pennsylvania                       6                 3                9
    Hawaii                          0                     0                   0    Puerto Rico                    27                44               71
    Idaho                           2                     1                   3    Rhode Island                       5                 4                9
    Illinois                    17                        1                   18   South Carolina                     1                 2                3
    Indiana                         0                     2                   2    South Dakota                       0                 0                0
    Iowa                        20                        19                  39   Tennessee                      24                    8            32
    Kansas                          2                     1                   3    Texas – BBBEF                  28                    8            36
    Kentucky                        6                     3                   9    Texas – NHCOA                  26                    6            32
    Louisiana                       2                     0                   2    Utah                           16                16               32
    Maine                           7                     0                   7    Vermont                            1                 2                3
    Maryland                        0                     2                   2    Virginia                       22                14               36
    Massachusetts                   0                     0                   0    Washington                         3                 3                6
    Michigan                        2                     0                   2    West Virginia                      0                 2                2
    Minnesota                   11                        23                  34   WI – CWAG                      11                    2            13
    Mississippi                     0                     14                  14   WI – GLITC                         0                 0                0
    Missouri                        5                     3                   8    Wyoming                            1                 0                1
    Montana                     14                        50                  64

               PERFORMANCE MEASURE 12                          January – June                   July – December                     Total 2004
                               TOTAL                                522                                559                            1,081


                                                                                                                                                             20
A    P     P E N D    I X ~    C        



                     PERFORMANCE MEASURE 13: Number of Complaints that Resulted in Some Action
                      Jan. - June           July - Dec.             Total 2004                             Jan. - June       July - Dec.       Total 2004
    Alabama                     15                        20                     35   Nebraska                           4                 6            10
    Alaska                          0                         0                  0    Nevada                             0                 1                1
    Arizona                         0                         0                  0    New Hampshire                      0                 0                0
    Arkansas                        0                         3                  3    New Jersey                         0                 0                0
    California                      2                         3                  5    New Mexico                     39                45               84
    Colorado                        0                         0                  0    New York                       34               200              234
    Connecticut                     0                         0                  0    North Carolina                     2                 0                2
    Delaware                        0                         0                  0    North Dakota                       0                 0                0
    DC – AARP                       0                         1                  1    Ohio – COAAA                       0                 1                1
    DC – FH                         0                         0                  0    Ohio – PSI                         0                 0                0
    Florida                         0                         0                  0    Oklahoma                           0                 0                0
    Georgia – ARC                   0                         1                  1    Oregon                             0                 4                4
    Georgia – DHR                   3                         6                  9    Pennsylvania                       3                 0                3
    Hawaii                          0                         0                  0    Puerto Rico                        3                 9            12
    Idaho                           0                         1                  1    Rhode Island                       0                 0                0
    Illinois                        3                         0                  3    South Carolina                     1                 0                1
    Indiana                         0                         0                  0    South Dakota                       0                 0                0
    Iowa                            4                         3                  7    Tennessee                          7                 3            10
    Kansas                          0                         0                  0    Texas – BBBEF                  13                    3            16
    Kentucky                        3                         0                  3    Texas – NHCOA                  34                    1            35
    Louisiana                       1                         0                  1    Utah                               4                 4                8
    Maine                           4                         1                  5    Vermont                            1                 0                1
    Maryland                        0                         1                  1    Virginia                           0                 2                2
    Massachusetts                   0                                             0   Washington                         0                 0                0
                                                          0
    Michigan                        1                         0                  1    West Virginia                      0                 0                0
    Minnesota                       9                         1                  10   WI – CWAG                          4                 1                5
    Mississippi                     0                         0                  0    WI – GLITC                         0                 0                0
    Missouri                        0                         2                  2    Wyoming                            1                 0                1
    Montana                         0                         5                  5

               PERFORMANCE MEASURE 13                             January – June                   July – December                     Total 2004
                               TOTAL                                   195                                328                             523


                                                                                                                                                                21
A    P     P E N D    I X ~    C     



                     PERFORMANCE MEASURE 14: Medicare Funds Recovered Attributable to the Project
                      Jan. - June        July - Dec.          Total 2004                             Jan. - June      July - Dec.      Total 2004
    Alabama                     $0                     $0                  $0   Nebraska                         $0           $534             $534
    Alaska                      $0                     $0                  $0   Nevada                           $0             $0               $0
    Arizona                     $0                     $0                  $0   New Hampshire                    $0             $0               $0
    Arkansas                    $0                     $0                  $0   New Jersey                       $0             $0               $0
    California                  $0                     $0                  $0   New Mexico                       $0             $0               $0
    Colorado                    $0                     $0                  $0   New York                  $22,005          $22,686           $44,691
    Connecticut                 $0                     $0                  $0   North Carolina                   $0             $0               $0
    Delaware                    $0                     $0                  $0   North Dakota                     $0             $0               $0
    DC – AARP                   $0                     $0                  $0   Ohio – COAAA                     $0             $0               $0
    DC – FH                     $0                     $0                  $0   Ohio – PSI                       $0             $0               $0
    Florida                     $0                     $0                  $0   Oklahoma                         $0             $0               $0
    Georgia – ARC               $0                 $45                 $45      Oregon                           $0             $0               $0
    Georgia – DHR               $0                     $0                  $0   Pennsylvania                     $0             $0               $0
    Hawaii                      $0                     $0                  $0   Puerto Rico                $1,139           $1,410            $2,549
    Idaho                       $0                     $0                  $0   Rhode Island                     $0             $0               $0
    Illinois                    $0                     $0                  $0   South Carolina                   $0             $0               $0
    Indiana                     $0                     $0                  $0   South Dakota                     $0             $0               $0
    Iowa                        $0                     $0                  $0   Tennessee                      $114             $0             $114
    Kansas                      $0                     $0                  $0   Texas – BBBEF             $18,926             $962           $19,888
    Kentucky                    $0                     $0                  $0   Texas – NHCOA                    $0            $65              $65
    Louisiana                   $0                     $0                  $0   Utah                             $0             $0               $0
    Maine                       $0                     $0                  $0   Vermont                          $0             $0               $0
    Maryland                    $0                     $0                  $0   Virginia                         $0         $1,520            $1,520
    Massachusetts               $0                     $0                  $0   Washington                       $0             $0               $0
    Michigan                    $0                     $0                  $0   West Virginia                    $0             $0               $0
    Minnesota                   $0                     $0                  $0   WI – CWAG                       $39             $0              $39
    Mississippi                 $0                     $0                  $0   WI – GLITC                       $0             $0               $0
    Missouri                    $0                 $58                 $58      Wyoming                          $0             $0               $0
    Montana                     $0                     $0                  $0

               PERFORMANCE MEASURE 14                       January – June                   July – December                    Total 2004
                               TOTAL                           $42,223                           $27,281                         $69,504


                                                                                                                                                       22
A    P     P E N D     I X ~    C     



                     PERFORMANCE MEASURE 15A: Medicaid Funds Recovered Attributable to the Project
                       Jan. - June        July - Dec.          Total 2004                             Jan. - June    July - Dec.      Total 2004
    Alabama                      $0                     $0                  $0   Nebraska                       $0             $0                $0
    Alaska                       $0                     $0                  $0   Nevada                         $0             $0                $0
    Arizona                      $0                     $0                  $0   New Hampshire                  $0             $0                $0
    Arkansas                     $0                     $0                  $0   New Jersey                     $0             $0                $0
    California                   $0                     $0                  $0   New Mexico               $200,000             $0           $200,000
    Colorado                     $0                     $0                  $0   New York                       $0             $0                $0
    Connecticut                  $0                     $0                  $0   North Carolina                 $0             $0                $0
    Delaware                     $0                     $0                  $0   North Dakota                   $0             $0                $0
    DC – AARP                    $0                     $0                  $0   Ohio – COAAA                   $0             $0                $0
    DC – FH                      $0                     $0                  $0   Ohio – PSI                     $0             $0                $0
    Florida                      $0                     $0                  $0   Oklahoma                       $0             $0                $0
    Georgia – ARC                $0                     $0                  $0   Oregon                         $0             $0                $0
    Georgia – DHR                $0                     $0                  $0   Pennsylvania                   $0             $0                $0
    Hawaii                       $0                     $0                  $0   Puerto Rico                    $0             $0                $0
    Idaho                        $0                     $0                  $0   Rhode Island                   $0             $0                $0
    Illinois                     $0                     $0                  $0   South Carolina                 $0             $0                $0
    Indiana                      $0                     $0                  $0   South Dakota                   $0             $0                $0
    Iowa                         $0            $17,109              $17,109      Tennessee                      $0             $0                $0
    Kansas                       $0                     $0                  $0   Texas – BBBEF                  $0             $0                $0
    Kentucky                     $0                     $0                  $0   Texas – NHCOA                  $0             $0                $0
    Louisiana                    $0                     $0                  $0   Utah                           $0             $0                $0
    Maine                        $0                     $0                  $0   Vermont                        $0             $0                $0
    Maryland                     $0                     $0                  $0   Virginia                       $0             $0                $0
    Massachusetts                $0                     $0                  $0   Washington                     $0             $0                $0
    Michigan                     $0                     $0                  $0   West Virginia                  $0             $0                $0
    Minnesota                    $0                     $0                  $0   WI – CWAG                      $0             $0                $0
    Mississippi                  $0                     $0                  $0   WI – GLITC                     $0             $0                $0
    Missouri                     $0                     $0                  $0   Wyoming                        $0             $0                $0
    Montana                      $0                     $0                  $0

               PERFORMANCE MEASURE 15A                       January – June                   July – December                  Total 2004
                                TOTAL                          $200,000                           $17,109                      $217,109


                                                                                                                                                       23
A    P     P E N D     I X ~ C 


                      PERFORMANCE MEASURE 15B: Savings to Beneficiaries Attributable to the Project
                       Jan. - June    July -Dec .          Total 2004                             Jan. - June      July -Dec .      Total 2004
    Alabama                 $10,465                 $0          $10,465      Nebraska                         $0           $134             $134
    Alaska                       $0                 $0                  $0   Nevada                           $0           $200             $200
    Arizona                      $0                 $0                  $0   New Hampshire                    $0             $0               $0
    Arkansas                   $782           $952               $1,734      New Jersey                       $0             $0               $0
    California                   $0         $5,355               $5,355      New Mexico                $85,414               $0           $85,414
    Colorado                     $0                 $0                  $0   New York                         $0             $0               $0
    Connecticut                  $0                 $0                  $0   North Carolina                 $150             $0             $150
    Delaware                     $0                 $0                  $0   North Dakota                     $0             $0               $0
    DC – AARP                    $0                 $0                  $0   Ohio – COAAA                     $0             $0               $0
    DC – FH                      $0                 $0                  $0   Ohio – PSI                       $0             $0               $0
    Florida                      $0                 $0                  $0   Oklahoma                         $0             $0               $0
    Georgia – ARC                $0                 $0                  $0   Oregon                         $808             $0             $808
    Georgia – DHR                $0                 $0                  $0   Pennsylvania                     $0         $8,422            $8,422
    Hawaii                       $0                 $0                  $0   Puerto Rico                      $0             $0               $0
    Idaho                   $71,491        $31,257             $102,748      Rhode Island                     $0             $0               $0
    Illinois                     $0                 $0                  $0   South Carolina                   $0             $0               $0
    Indiana                      $0                 $0                  $0   South Dakota                     $0             $0               $0
    Iowa                         $0                 $0                  $0   Tennessee                        $0           $265             $265
    Kansas                       $0                 $0                  $0   Texas – BBBEF                    $0             $0               $0
    Kentucky                     $0                 $0                  $0   Texas – NHCOA                    $0             $0               $0
    Louisiana                    $0                 $0                  $0   Utah                       $1,151               $0            $1,151
    Maine                    $3,128                 $0           $3,128      Vermont                          $0             $0               $0
    Maryland                   $840                 $0             $840      Virginia                         $0             $0               $0
    Massachusetts                $0                 $0                  $0   Washington                       $0             $0               $0
    Michigan                   $299                 $0             $299      West Virginia                    $0             $0               $0
    Minnesota               $31,452       $102,140             $133,592      WI – CWAG                        $0             $0               $0
    Mississippi                  $0                 $0                  $0   WI – GLITC                       $0             $0               $0
    Missouri                   $887                 $0             $887      Wyoming                          $0             $0               $0
    Montana                      $0           $420                 $420



               PERFORMANCE MEASURE 15B                   January – June                   July – December                    Total 2004
                                TOTAL                      $206,867                          $149,143                        $356,010
                                                                                                                                                    24
A    P     P E N D     I X ~    C     


                           PERFORMANCE MEASURE 15C: Other Savings Attributable to the Project
                       Jan. - June        July - Dec.          Total 2004                             Jan. - June    July - Dec.      Total 2004
    Alabama                      $0                     $0                  $0   Nebraska                       $0             $0              $0
    Alaska                       $0                     $0                  $0   Nevada                         $0           $900            $900
    Arizona                      $0                     $0                  $0   New Hampshire                  $0             $0              $0
    Arkansas                     $0                     $0                  $0   New Jersey                     $0             $0              $0
    California                   $0                     $0                  $0   New Mexico                     $0             $0              $0
    Colorado                     $0                     $0                  $0   New York                       $0             $0              $0
    Connecticut                  $0                     $0                  $0   North Carolina                 $0             $0              $0
    Delaware                     $0                     $0                  $0   North Dakota                   $0             $0              $0
    DC – AARP                    $0                     $0                  $0   Ohio – COAAA                   $0             $0              $0
    DC – FH                      $0                     $0                  $0   Ohio – PSI                     $0             $0              $0
    Florida                      $0                     $0                  $0   Oklahoma                       $0             $0              $0
    Georgia – ARC                $0                     $0                  $0   Oregon                         $0             $0              $0
    Georgia – DHR                $0                     $0                  $0   Pennsylvania                   $0             $0              $0
    Hawaii                       $0                     $0                  $0   Puerto Rico                    $0             $0              $0
    Idaho                        $0                     $0                  $0   Rhode Island                   $0             $0              $0
    Illinois                     $0                     $0                  $0   South Carolina                 $0             $0              $0
    Indiana                      $0                     $0                  $0   South Dakota                   $0             $0              $0
    Iowa                         $0                     $0                  $0   Tennessee                      $0             $0              $0
    Kansas                       $0                     $0                  $0   Texas – BBBEF                  $0             $0              $0
    Kentucky                     $0                     $0                  $0   Texas – NHCOA                  $0             $0              $0
    Louisiana                    $0                     $0                  $0   Utah                       $1,395             $0           $1,395
    Maine                        $0                     $0                  $0   Vermont                        $0             $0              $0
    Maryland                     $0                     $0                  $0   Virginia                       $0             $0              $0
    Massachusetts                $0                 $0                      $0   Washington                     $0             $0              $0
    Michigan                     $0                  $0                     $0   West Virginia                  $0             $0              $0
    Minnesota               $27,642                     $0          $27,642      WI – CWAG                      $0             $0              $0
    Mississippi                  $0                     $0                  $0   WI – GLITC                     $0             $0              $0
    Missouri                     $0                     $0                  $0   Wyoming                        $0             $0              $0
    Montana                      $0                     $0                  $0

               PERFORMANCE MEASURE 15C                       January – June                   July – December                  Total 2004
                                TOTAL                           $29,037                             $900                        $29,937


                                                                                                                                                     25
Δ      A P P E N D I X              ~     D     




                                          Individual Project Results for 2004
The following tables provide the results for each performance measure for each of the 57 Senior Medicare Patrol Projects operating in
2004. Each table provides the performance measure results for the two 6-month reporting periods.

For the July through December 2004 reporting period, grantees were asked to calculate performance measure 9, “Estimated number of
people reached by media events,” as the unduplicated count of people exposed to a particular media event. Therefore, if the media
event is an aired or printed advertisement, the estimated number of people reached is counted once, regardless of how often the
advertisement runs. Prior to the current reporting period, some grantees counted these events differently.




                                                                                                                                   26
 A P P E N D           I X ~ D 



                  Alabama - Alabama Commission on Aging, Montgomery                                    In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           62             42              20                 -22
     2    Number of new volunteers trained                                       334            218             116                -102
     3    Number of media events conducted                                       171             95              76                 -19
     4    Number of community education events conducted                         452            198             254                  56
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     81             46              35                 -11
     6    Number of group sessions for beneficiaries led by volunteers           473            309             164                -145
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                          24,537          13,505          11,032              -2,473
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       6,789           5,828             961              -4,867
  7+8     Total number of beneficiaries educated                              31,326          19,333          11,993              -7,340
     9    Estimated number of people reached by media events                      NA         402,426       1,053,768                 NA
    10    Estimated number of people reached by community education
          events                                                             145,444          72,503          72,941                438
    11    Number of complaints received attributable to the project              977             365             612                247
    12    Number of complaints referred for followup                             183              83             100                 17
    13    Number of complaints that resulted in some action                       35              15              20                  5
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project               $10,465         $10,465             $0            -$10,465
   15C    Other savings attributable to the project                               $0              $0             $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings       $10,465         $10,465             $0            -$10,465
14 + 15   Total savings attributable to the project                          $10,465         $10,465             $0            -$10,465




                                                                                                                                  27
A P P E N D         I X ~ D 



              Alaska - Alaska State Division of Senior Services, Anchorage                            In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           15             13               2                 -11
     2    Number of new volunteers trained                                       129              2             127                 125
     3    Number of media events conducted                                         9              7               2                  -5
     4    Number of community education events conducted                          28             13              15                   2
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                    129              2             127                 125
     6    Number of group sessions for beneficiaries led by volunteers            10              0              10                  10
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             100              0             100                 100
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          26              1              25                  24
  7+8     Total number of beneficiaries educated                                 126              1             125                 124
     9    Estimated number of people reached by media events                      NA        500,000          500,000                 NA
    10    Estimated number of people reached by community education
          events                                                                 330            130             200                    70
    11    Number of complaints received attributable to the project                4              1               3                     2
    12    Number of complaints referred for followup                               1              1               0                    -1
    13    Number of complaints that resulted in some action                        0              0               0                     0
    14    Medicare funds recovered attributable to the project                    $0             $0              $0                    $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0              $0                    $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0               $0                   $0
   15C    Other savings attributable to the project                               $0             $0               $0                   $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0               $0                   $0
14 + 15   Total savings attributable to the project                               $0             $0               $0                   $0




                                                                                                                                  28
 A P P E N D           I X ~ D 



              Arizona - Arizona Department of Economic Security, Phoenix                                 In operation since: July 1999
                                                                          Total for          January      July through       Change in Last 6
                       PERFORMANCE MEASURES                                2004           through June     December              Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           93                19               74                      55
     2    Number of new volunteers trained                                        69                39               30                      -9
     3    Number of media events conducted                                        52                24               28                       4
     4    Number of community education events conducted                         241               144               97                   -47
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     68                39               29                   -10
     6    Number of group sessions for beneficiaries led by volunteers            31                 7               24                      17
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           5,196             4,056            1,140                 -2,916
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          53                23               30                       7
  7+8     Total number of beneficiaries educated                               5,249             4,079            1,170                 -2,909
     9    Estimated number of people reached by media events                      NA            47,768           10,333                    NA
    10    Estimated number of people reached by community education
          events                                                              18,990             9,671            9,319                  -352
    11    Number of complaints received attributable to the project              119                78               41                   -37
    12    Number of complaints referred for followup                                  9              7                   2                   -5
    13    Number of complaints that resulted in some action                        0                 0                0                       0
    14    Medicare funds recovered attributable to the project                    $0                $0               $0                      $0
   15A    Medicaid funds recovered attributable to the project                    $0                $0               $0                      $0
   15B    Savings to beneficiaries attributable to the project                    $0                $0               $0                      $0
   15C    Other savings attributable to the project                               $0                $0               $0                      $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0                $0               $0                      $0
14 + 15   Total savings attributable to the project                               $0                $0               $0                      $0




                                                                                                                                        29
 A P P E N D            I X ~ D 


          Arkansas - Arkansas Division of Aging and Adult Services, Little Rock                         In operation since: July 2002
                                                                           Total for       January      July through    Change in Last 6
                        PERFORMANCE MEASURES                                2004        through June     December           Months
                           OUTPUT MEASURES
     1     Number of training sessions conducted to train new volunteers           13              4               9                     5
     2     Number of new volunteers trained                                        68             14              54                    40
     3     Number of media events conducted                                        36             17              19                     2
     4     Number of community education events conducted                          56             30              26                    -4
                            OUTCOME MEASURES
     5     Number of volunteers who, for the first time, conducted
           activities to educate beneficiaries                                     35             10              25                    15
     6     Number of group sessions for beneficiaries led by volunteers            89             44              45                     1
     7     Number of beneficiaries who attended group sessions led by
           volunteers                                                           2,697           1,668           1,029               -639
     8     Number of one-on-one sessions held between beneficiaries
           and volunteers                                                          60               3              57                 54
  7+8      Total number of beneficiaries educated                               2,757           1,671           1,086               -585
     9     Estimated number of people reached by media events                      NA         737,428         257,200                 NA
    10     Estimated number of people reached by community education
           events                                                               5,196           2,425           2,771                346
    11     Number of complaints received attributable to the project               89              39              50                 11
    12     Number of complaints referred for followup                              31               9              22                 13
    13     Number of complaints that resulted in some action                        3               0               3                  3
    14     Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A     Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B     Savings to beneficiaries attributable to the project                $1,734           $782            $952                $170
   15C     Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15    Total Medicaid funds, beneficiary savings, and other savings        $1,734           $782            $952                $170
14 + 15    Total savings attributable to the project                           $1,734           $782            $952                $170




                                                                                                                                   30
A P P E N D         I X ~ D 



           California - California Health Insurance Counseling Advocacy Programs
                                                                                                            In operation since: July 1997
                                    Association, Sacramento
                                                                            Total for          January      July through    Change in Last 6
                         PERFORMANCE MEASURES                                2004           through June     December           Months
                            OUTPUT MEASURES
      1     Number of training sessions conducted to train new volunteers               8              6               2                    -4
      2     Number of new volunteers trained                                       257               187              70                -117
      3     Number of media events conducted                                        43                26              17                    -9
      4     Number of community education events conducted                         116                52              64                    12
                             OUTCOME MEASURES
      5     Number of volunteers who, for the first time, conducted
            activities to educate beneficiaries                                     38                16              22                     6
      6     Number of group sessions for beneficiaries led by volunteers           260               207              53                -154
      7     Number of beneficiaries who attended group sessions led by
            volunteers                                                           9,567              7,977           1,590              -6,387
      8     Number of one-on-one sessions held between beneficiaries
            and volunteers                                                          86                18              68                    50
   7+8      Total number of beneficiaries educated                               9,653              7,995           1,658              -6,337
      9     Estimated number of people reached by media events                      NA          6,011,000       4,413,000                 NA
     10     Estimated number of people reached by community education
            events                                                              29,662             23,768           5,894             -17,874
     11     Number of complaints received attributable to the project               89                21              68                    47
     12     Number of complaints referred for followup                              56                18              38                    20
     13     Number of complaints that resulted in some action                        5                 2               3                     1
     14     Medicare funds recovered attributable to the project                    $0                $0              $0                    $0
    15A     Medicaid funds recovered attributable to the project                    $0                $0              $0                    $0
    15B     Savings to beneficiaries attributable to the project                $5,355                $0           $5,355             $5,355
    15C     Other savings attributable to the project                               $0                $0              $0                    $0
 TOTAL
      15    Total Medicaid funds, beneficiary savings, and other savings        $5,355                $0           $5,355             $5,355
 14 + 15    Total savings attributable to the project                           $5,355                $0           $5,355             $5,355




                                                                                                                                       31
A P P E N D         I X ~ D 



                      Colorado - Colorado Division of Insurance, Denver                                 In operation since: July 1999
                                                                           Total for       January      July through    Change in Last 6
                        PERFORMANCE MEASURES                                2004        through June     December           Months
                           OUTPUT MEASURES
      1    Number of training sessions conducted to train new volunteers            1              1               0                     -1
      2    Number of new volunteers trained                                         5              5               0                     -5
      3    Number of media events conducted                                        40              7              33                     26
      4    Number of community education events conducted                          66             31              35                      4
                            OUTCOME MEASURES
      5    Number of volunteers who, for the first time, conducted
           activities to educate beneficiaries                                      9              6               3                      -3
      6    Number of group sessions for beneficiaries led by volunteers           138             92              46                     -46
      7    Number of beneficiaries who attended group sessions led by
           volunteers                                                           3,869           2,232           1,637                   -595
      8    Number of one-on-one sessions held between beneficiaries
           and volunteers                                                          95              56              39                    -17
   7+8     Total number of beneficiaries educated                               3,964           2,288           1,676                   -612
      9    Estimated number of people reached by media events                      NA         149,200         489,000                    NA
     10    Estimated number of people reached by community education
           events                                                               2,275            836            1,439                   603
     11    Number of complaints received attributable to the project               13              8                5                    -3
     12    Number of complaints referred for followup                               3              2                1                    -1
     13    Number of complaints that resulted in some action                        0              0                0                     0
     14    Medicare funds recovered attributable to the project                    $0             $0               $0                    $0
    15A    Medicaid funds recovered attributable to the project                    $0             $0               $0                    $0
    15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                     $0
    15C    Other savings attributable to the project                               $0             $0              $0                     $0
 TOTAL
      15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                     $0
 14 + 15   Total savings attributable to the project                               $0             $0              $0                     $0




                                                                                                                                   32
 A P P E N D           I X ~ D 



           Connecticut - Connecticut Department of Social Services, Hartford                           In operation since: July 1999
                                                                          Total for       January      July through     Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December            Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           20             16               4                      -12
     2    Number of new volunteers trained                                       276            226              50                     -176
     3    Number of media events conducted                                        42             30              12                      -18
     4    Number of community education events conducted                         194            116              78                      -38
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     21             18               3                      -15
     6    Number of group sessions for beneficiaries led by volunteers            26             16              10                       -6
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             949            467             482                        15
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          29             13              16                         3
  7+8     Total number of beneficiaries educated                                 978            480             498                        18
     9    Estimated number of people reached by media events                      NA         619,372         593,000                       NA
    10    Estimated number of people reached by community education
          events                                                              17,474          13,287           4,187                   -9,100
    11    Number of complaints received attributable to the project               61              43              18                      -25
    12    Number of complaints referred for followup                              26              23               3                      -20
    13    Number of complaints that resulted in some action                        0               0               0                        0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                       $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                       $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                        $0
   15C    Other savings attributable to the project                               $0             $0              $0                        $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                        $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                        $0




                                                                                                                                 33

 A P P E N D           I X ~ D 



     Delaware - Delaware Department of Health and Social Services, New Castle                          In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            4              3               1                  -2
     2    Number of new volunteers trained                                        21             19               2                 -17
     3    Number of media events conducted                                       182            171              11                -160
     4    Number of community education events conducted                          25             17               8                  -9
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     16             12               4                    -8
     6    Number of group sessions for beneficiaries led by volunteers           121             57              64                     7
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           2,358           1,179           1,179                    0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         112              96              16                -80
  7+8     Total number of beneficiaries educated                               2,470           1,275           1,195                -80
     9    Estimated number of people reached by media events                      NA      11,000,000         600,000                 NA
    10    Estimated number of people reached by community education
          events                                                               4,656           1,829           2,827                998
    11    Number of complaints received attributable to the project               23               7              16                  9
    12    Number of complaints referred for followup                               5               1               4                  3
    13    Number of complaints that resulted in some action                        0               0               0                  0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  34
 A P P E N D           I X ~ D 



              District of Columbia - The AARP Foundation, Washington, DC                               In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            1              0               1                     1
     2    Number of new volunteers trained                                         5              0               5                     5
     3    Number of media events conducted                                         4              2               2                     0
     4    Number of community education events conducted                          21              8              13                     5
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      0              0               0                   0
     6    Number of group sessions for beneficiaries led by volunteers            48             29              19                 -10
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,401            756             645                -111
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                           0              0               0                   0
  7+8     Total number of beneficiaries educated                               1,401            756             645                -111
     9    Estimated number of people reached by media events                      NA      18,000,000         690,000                 NA
    10    Estimated number of people reached by community education
          events                                                              16,010           6,150           9,860              3,710
    11    Number of complaints received attributable to the project               75              27              48                 21
    12    Number of complaints referred for followup                               1               0               1                  1
    13    Number of complaints that resulted in some action                        1               0               1                  1
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  35
 A P P E N D           I X ~ D 




                 District of Columbia - Friendship House, Washington, DC                               In operation since: July 1999
                                                                          Total for       January       July through       Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June      December              Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           10              5                 5                        0
     2    Number of new volunteers trained                                         7              4                 3                       -1
     3    Number of media events conducted                                         9              4                 5                        1
     4    Number of community education events conducted                          36             20                16                       -4
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      4              2                    2                     0
     6    Number of group sessions for beneficiaries led by volunteers            23             16                    7                    -9
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             841            441               400                      -41
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         747             707               40                     -667
  7+8     Total number of beneficiaries educated                               1,588           1,148              440                     -708
     9    Estimated number of people reached by media events                      NA       1,248,535           17,000                      NA
    10    Estimated number of people reached by community education
          events                                                              85,650          85,000              650                -84,350
    11    Number of complaints received attributable to the project               30              25                5                    -20
    12    Number of complaints referred for followup                               0               0                0                      0
    13    Number of complaints that resulted in some action                        0               0                0                      0
    14    Medicare funds recovered attributable to the project                    $0              $0               $0                     $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0               $0                     $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0                $0                      $0
   15C    Other savings attributable to the project                               $0             $0                $0                      $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0                $0                      $0
14 + 15   Total savings attributable to the project                               $0             $0                $0                      $0




                                                                                                                                     36
 A P P E N D           I X ~ D 


             Florida - Tampa Bay Regional Planning Council, St. Petersburg                             In operation since: July 1999
                                                                          Total for       January       July through     Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June      December            Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            3              2                 1                    -1
     2    Number of new volunteers trained                                        38             34                 4                   -30
     3    Number of media events conducted                                        78             40                38                    -2
     4    Number of community education events conducted                          80             64                16                   -48
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     14              7                 7                    0
     6    Number of group sessions for beneficiaries led by volunteers            47             14                33                   19
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,861            885               976                   91
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          51             49                 2                   -47
  7+8     Total number of beneficiaries educated                               1,912            934               978                    44
     9    Estimated number of people reached by media events                      NA       3,066,896         1,773,533                  NA
    10    Estimated number of people reached by community education
          events                                                               6,581           5,435            1,146               -4,289
    11    Number of complaints received attributable to the project               86              75               11                  -64
    12    Number of complaints referred for followup                               4               3                1                   -2
    13    Number of complaints that resulted in some action                        0               0                0                    0
    14    Medicare funds recovered attributable to the project                    $0              $0               $0                   $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0               $0                   $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0                $0                   $0
   15C    Other savings attributable to the project                               $0             $0                $0                   $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0                $0                   $0
14 + 15   Total savings attributable to the project                               $0             $0                $0                   $0




                                                                                                                                   37
 A P P E N D           I X ~ D 



                       Georgia - Atlanta Regional Commission, Atlanta                                  In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            5              2               3                   1
     2    Number of new volunteers trained                                        10              5               5                   0
     3    Number of media events conducted                                        43             25              18                  -7
     4    Number of community education events conducted                          48             41               7                 -34
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      8              3               5                   2
     6    Number of group sessions for beneficiaries led by volunteers           155            109              46                 -63
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           4,094           2,771           1,323              -1,448
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         492             226             266                  40
  7+8     Total number of beneficiaries educated                               4,586           2,997           1,589              -1,408
     9    Estimated number of people reached by media events                      NA         279,850         109,500                 NA
    10    Estimated number of people reached by community education
          events                                                               4,026           3,430            596               -2,834
    11    Number of complaints received attributable to the project               27              11             16                    5
    12    Number of complaints referred for followup                              14               9              5                   -4
    13    Number of complaints that resulted in some action                        1               0              1                    1
    14    Medicare funds recovered attributable to the project                   $45              $0            $45                  $45
   15A    Medicaid funds recovered attributable to the project                    $0              $0             $0                   $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                  $0
14 + 15   Total savings attributable to the project                              $45             $0             $45                 $45




                                                                                                                                  38
 A P P E N D           I X ~ D 



                     Georgia - Department of Human Resources, Atlanta                                  In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           10              4               6                     2
     2    Number of new volunteers trained                                        66             36              30                    -6
     3    Number of media events conducted                                        31              7              24                    17
     4    Number of community education events conducted                         127             55              72                    17
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     16              8               8                     0
     6    Number of group sessions for beneficiaries led by volunteers            30             15              15                     0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             825            410             415                     5
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          87              3              84                    81
  7+8     Total number of beneficiaries educated                                 912            413             499                    86
     9    Estimated number of people reached by media events                      NA         391,725         582,186                 NA
    10    Estimated number of people reached by community education
          events                                                              11,267           4,773           6,494              1,721
    11    Number of complaints received attributable to the project               25               7              18                 11
    12    Number of complaints referred for followup                              16               4              12                  8
    13    Number of complaints that resulted in some action                        9               3               6                  3
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  39
 A P P E N D           I X ~ D 



                     Hawaii - Hawaii Executive Office of Aging, Honolulu                               In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           10              8               2                  -6
     2    Number of new volunteers trained                                        71             59              12                 -47
     3    Number of media events conducted                                        11              2               9                   7
     4    Number of community education events conducted                          23              9              14                   5
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      5              5               0                  -5
     6    Number of group sessions for beneficiaries led by volunteers            70             45              25                 -20
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           3,294           1,683           1,611                -72
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                           2               2               0                 -2
  7+8     Total number of beneficiaries educated                               3,296           1,685           1,611                -74
     9    Estimated number of people reached by media events                      NA         500,000         420,000                 NA
    10    Estimated number of people reached by community education
          events                                                              14,700           4,200          10,500              6,300
    11    Number of complaints received attributable to the project               25              25               0                -25
    12    Number of complaints referred for followup                               0               0               0                  0
    13    Number of complaints that resulted in some action                        0               0               0                  0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  40
 A P P E N D           I X ~ D 




                       Idaho - Idaho Medicare Watch Partnership, Boise                                 In operation since: July 1999
                                                                          Total for       January       July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June      December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           21             13                 8                   -5
     2    Number of new volunteers trained                                        26             19                 7                  -12
     3    Number of media events conducted                                        64             29                35                    6
     4    Number of community education events conducted                         180             85                95                   10
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     14             11                 3                   -8
     6    Number of group sessions for beneficiaries led by volunteers           296            149               147                   -2
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           5,688           1,210            4,478              3,268
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       1,065             647              418               -229
  7+8     Total number of beneficiaries educated                               6,753           1,857            4,896              3,039
     9    Estimated number of people reached by media events                      NA         395,970          308,502                  NA
    10    Estimated number of people reached by community education
          events                                                              14,680           9,649            5,031              -4,618
    11    Number of complaints received attributable to the project            1,275             649              626                 -23
    12    Number of complaints referred for followup                               3               2                1                  -1
    13    Number of complaints that resulted in some action                        1               0                1                   1
    14    Medicare funds recovered attributable to the project                    $0              $0               $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0               $0                  $0
   15B    Savings to beneficiaries attributable to the project              $102,748         $71,491          $31,257           -$40,234
   15C    Other savings attributable to the project                               $0              $0               $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings      $102,748         $71,491          $31,257           -$40,234
14 + 15   Total savings attributable to the project                         $102,748         $71,491          $31,257           -$40,234




                                                                                                                                  41
A P P E N D         I X ~ D 


                     Illinois - Suburban Area Agency on Aging, Oak Park                                In operation since: July 1997
                                                                          Total for       January       July through     Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June      December            Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           16              12                4                   -8
     2    Number of new volunteers trained                                        22               6               16                   10
     3    Number of media events conducted                                     1,251           1,219               32               -1,187
     4    Number of community education events conducted                         325             276               49                 -227
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     93             86                 7                    -79
     6    Number of group sessions for beneficiaries led by volunteers           287            214                73                   -141
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                          15,530          12,562            2,968               -9,594
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         106             100                6                  -94
  7+8     Total number of beneficiaries educated                              15,636          12,662            2,974               -9,688
     9    Estimated number of people reached by media events                      NA         763,736         2,221,000                   NA
    10    Estimated number of people reached by community education
          events                                                              30,765          19,462           11,303               -8,159
    11    Number of complaints received attributable to the project               22              19                3                  -16
    12    Number of complaints referred for followup                              18              17                1                  -16
    13    Number of complaints that resulted in some action                        3               3                0                   -3
    14    Medicare funds recovered attributable to the project                    $0              $0               $0                   $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0               $0                   $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0                $0                    $0
   15C    Other savings attributable to the project                               $0             $0                $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0                $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0                $0                    $0




                                                                                                                                   42
 A P P E N D           I X ~ D 




   Indiana - Indiana Division of Disability, Aging and Rehabilitation, Indianapolis                    In operation since: July 1999
                                                                          Total for       January       July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June      December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           16              7                 9                     2
     2    Number of new volunteers trained                                       194            131                63                   -68
     3    Number of media events conducted                                       159            143                16                  -127
     4    Number of community education events conducted                         162             87                75                   -12
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     13              7                 6                    -1
     6    Number of group sessions for beneficiaries led by volunteers           107             88                19                   -69
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           2,480           2,178              302              -1,876
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         363             123              240                 117
  7+8     Total number of beneficiaries educated                               2,843           2,301              542              -1,759
     9    Estimated number of people reached by media events                      NA       1,428,266           88,769                   NA
    10    Estimated number of people reached by community education
          events                                                              40,120           9,470           30,650             21,180
    11    Number of complaints received attributable to the project               14               4               10                  6
    12    Number of complaints referred for followup                               2               0                2                  2
    13    Number of complaints that resulted in some action                        0               0                0                  0
    14    Medicare funds recovered attributable to the project                    $0              $0               $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0               $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0                $0                   $0
   15C    Other savings attributable to the project                               $0             $0                $0                   $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0                $0                   $0
14 + 15   Total savings attributable to the project                               $0             $0                $0                   $0




                                                                                                                                  43
A P P E N D        I X ~ D 



                       Iowa - Iowa Department of Elder Affairs, Waterloo                                    In operation since: July 1997
                                                                           Total for           January       July through     Change in Last 6
                        PERFORMANCE MEASURES                                2004            through June      December            Months
                           OUTPUT MEASURES
      1    Number of training sessions conducted to train new volunteers            13                  6                7                     1
      2    Number of new volunteers trained                                         38                  6               32                    26
      3    Number of media events conducted                                      4,313              2,064            2,249                   185
      4    Number of community education events conducted                          244                112              132                    20
                            OUTCOME MEASURES
      5    Number of volunteers who, for the first time, conducted
           activities to educate beneficiaries                                     38                  6                32                    26
      6    Number of group sessions for beneficiaries led by volunteers           566                325               241                   -84
      7    Number of beneficiaries who attended group sessions led by
           volunteers                                                          14,245               6,272            7,973               1,701
      8    Number of one-on-one sessions held between beneficiaries
           and volunteers                                                          83                  31               52                  21
   7+8     Total number of beneficiaries educated                              14,328               6,303            8,025               1,722
      9    Estimated number of people reached by media events                      NA       1,383,664,631         1,896,846                  NA
     10    Estimated number of people reached by community education
           events                                                              13,499               3,767            9,732               5,965
     11    Number of complaints received attributable to the project               96                  44               52                   8
     12    Number of complaints referred for followup                              39                  20               19                  -1
     13    Number of complaints that resulted in some action                        7                   4                3                  -1
     14    Medicare funds recovered attributable to the project                    $0                  $0               $0                  $0
    15A    Medicaid funds recovered attributable to the project               $17,109                  $0          $17,109             $17,109
    15B    Savings to beneficiaries attributable to the project                        $0             $0                $0                   $0
    15C    Other savings attributable to the project                                   $0             $0                $0                   $0
 TOTAL
      15   Total Medicaid funds, beneficiary savings, and other savings       $17,109                 $0           $17,109             $17,109
 14 + 15   Total savings attributable to the project                          $17,109                 $0           $17,109             $17,109




                                                                                                                                        44
 A P P E N D           I X ~ D 



                         Kansas - Via Christi Foundation, Inc., Wichita                                   In operation since: July 2003
                                                                          Total for          January       July through       Change in Last 6
                       PERFORMANCE MEASURES                                2004           through June      December              Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            2                 2                    0                    -2
     2    Number of new volunteers trained                                        58                58                    0                   -58
     3    Number of media events conducted                                        10                 4                    6                     2
     4    Number of community education events conducted                           4                 2                    2                     0
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                         6              6                    0                    -6
     6    Number of group sessions for beneficiaries led by volunteers                6              6                    0                    -6
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                              75                75                    0                   -75
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          39                24                15                       -9
  7+8     Total number of beneficiaries educated                                 114                99                15                      -84
     9    Estimated number of people reached by media events                      NA              8,000           27,500                      NA
    10    Estimated number of people reached by community education
          events                                                               1,080              1,000               80                     -920
    11    Number of complaints received attributable to the project                3                  2                1                       -1
    12    Number of complaints referred for followup                               3                  2                1                       -1
    13    Number of complaints that resulted in some action                        0                  0                0                        0
    14    Medicare funds recovered attributable to the project                    $0                 $0               $0                       $0
   15A    Medicaid funds recovered attributable to the project                    $0                 $0               $0                       $0
   15B    Savings to beneficiaries attributable to the project                    $0                $0                $0                      $0
   15C    Other savings attributable to the project                               $0                $0                $0                      $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0                $0                $0                      $0
14 + 15   Total savings attributable to the project                               $0                $0                $0                      $0




                                                                                                                                        45
 A P P E N D           I X ~ D 



  Kentucky - Kentucky Association of Senior Service Corps Programs, Louisville                         In operation since: July 2001
                                                                          Total for       January       July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June      December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           23             14                 9                    -5
     2    Number of new volunteers trained                                        53             45                 8                   -37
     3    Number of media events conducted                                       313            252                61                  -191
     4    Number of community education events conducted                         113             75                38                   -37
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     35             29                 6                   -23
     6    Number of group sessions for beneficiaries led by volunteers           439            292               147                  -145
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                          13,325           8,828            4,497              -4,331
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       3,178           1,853            1,325                -528
  7+8     Total number of beneficiaries educated                              16,503          10,681            5,822              -4,859
     9    Estimated number of people reached by media events                      NA       4,734,027          879,961                   NA
    10    Estimated number of people reached by community education
          events                                                               8,645           5,291            3,354              -1,937
    11    Number of complaints received attributable to the project              176             154               22                -132
    12    Number of complaints referred for followup                               9               6                3                  -3
    13    Number of complaints that resulted in some action                        3               3                0                  -3
    14    Medicare funds recovered attributable to the project                    $0              $0               $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0               $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0                $0                   $0
   15C    Other savings attributable to the project                               $0             $0                $0                   $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0                $0                   $0
14 + 15   Total savings attributable to the project                               $0             $0                $0                   $0




                                                                                                                                  46
    A P P E N D            I X ~ D 



                Louisiana - Vernon Parish Council on Aging, Inc., Leesville                            In operation since: July 2000
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            5              2               3                   1
     2    Number of new volunteers trained                                       174             98              76                 -22
     3    Number of media events conducted                                        53              4              49                  45
     4    Number of community education events conducted                          81             12              69                  57
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     43              2              41                    39
     6    Number of group sessions for beneficiaries led by volunteers            80              5              75                    70
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,529             47            1,482              1,435
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         488             89              399                310
  7+8     Total number of beneficiaries educated                               2,017            136            1,881              1,745
     9    Estimated number of people reached by media events                      NA         100,000          31,200                 NA
    10    Estimated number of people reached by community education
          events                                                               3,194            244            2,950              2,706
    11    Number of complaints received attributable to the project               14              5                9                  4
    12    Number of complaints referred for followup                               2              2                0                 -2
    13    Number of complaints that resulted in some action                        1              1                0                 -1
    14    Medicare funds recovered attributable to the project                    $0             $0               $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0               $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  47
  A P P E N D            I X ~ D 



Maine - Maine Department of Human Services' Bureau of Elder and Adult Services,
                                                                                                       In operation since: July 1999
                                  Augusta
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           24             19               5                  -14
     2    Number of new volunteers trained                                        48             25              23                   -2
     3    Number of media events conducted                                       182             65             117                   52
     4    Number of community education events conducted                         143             59              84                   25
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     18             13               5                   -8
     6    Number of group sessions for beneficiaries led by volunteers           292            155             137                  -18
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           5,473           2,666           2,807                141
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         782             346             436                 90
  7+8     Total number of beneficiaries educated                               6,255           3,012           3,243                231
     9    Estimated number of people reached by media events                      NA       1,205,839       1,467,356                 NA
    10    Estimated number of people reached by community education
          events                                                              18,938           5,397          13,541              8,144
    11    Number of complaints received attributable to the project               16              15               1                -14
    12    Number of complaints referred for followup                               7               7               0                 -7
    13    Number of complaints that resulted in some action                        5               4               1                 -3
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                $3,128          $3,128             $0              -$3,128
   15C    Other savings attributable to the project                               $0              $0             $0                   $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings        $3,128          $3,128             $0              -$3,128
14 + 15   Total savings attributable to the project                           $3,128          $3,128             $0              -$3,128




                                                                                                                                  48
  A P P E N D            I X ~ D 



                       Maryland - Maryland Office on Aging, Baltimore                                  In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           42             18              24                   6
     2    Number of new volunteers trained                                       411              4             407                 403
     3    Number of media events conducted                                       483             56             427                 371
     4    Number of community education events conducted                         382             53             329                 276
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      1              0               1                   1
     6    Number of group sessions for beneficiaries led by volunteers           206            205               1                -204
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           6,922           6,922              0               -6,922
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       2,966           1,648           1,318                -330
  7+8     Total number of beneficiaries educated                               9,888           8,570           1,318              -7,252
     9    Estimated number of people reached by media events                      NA         446,952         104,100                 NA
    10    Estimated number of people reached by community education
          events                                                              14,570           8,804           5,766              -3,038
    11    Number of complaints received attributable to the project              428              21             407                 386
    12    Number of complaints referred for followup                               2               0               2                   2
    13    Number of complaints that resulted in some action                        1               0               1                   1
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                  $840           $840              $0               -$840
   15C    Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $840           $840              $0               -$840
14 + 15   Total savings attributable to the project                             $840           $840              $0               -$840




                                                                                                                                  49
    A P P E N D            I X ~ D 



                      Massachusetts - Elder Services of Merrimack, Lawrence                                                 In operation since: July 1999
                                                                                     Total for          January             July through    Change in Last 6
                           PERFORMANCE MEASURES                                       2004           through June            December2          Months
                              OUTPUT MEASURES
         1   Number of training sessions conducted to train new volunteers                     15                   8                  7                  -1
         2   Number of new volunteers trained                                                 117                  40                 77                  37
         3   Number of media events conducted                                                 259                  58                201                 143
         4   Number of community education events conducted                                   753                 250                503                 253
                               OUTCOME MEASURES
         5   Number of volunteers who, for the first time, conducted
             activities to educate beneficiaries                                               20                  17                  3                 -14
         6   Number of group sessions for beneficiaries led by volunteers                     205                   0                205                 205
         7   Number of beneficiaries who attended group sessions led by
             volunteers                                                                          0                      0              0                     0
         8   Number of one-on-one sessions held between beneficiaries
             and volunteers                                                               19,807                6,320              13,487              7,167
     7+8     Total number of beneficiaries educated                                       19,807                6,320              13,487              7,167
         9   Estimated number of people reached by media events                               NA             300,000            3,794,987                 NA
        10   Estimated number of people reached by community education
             events                                                                       45,437              20,000               25,437              5,437
       11    Number of complaints received attributable to the project                       527                   5                  522                517
       12    Number of complaints referred for followup                                        0                   0                    0                  0
       13    Number of complaints that resulted in some action                                 0                   0                    0                  0
       14    Medicare funds recovered attributable to the project                             $0                  $0                   $0                 $0
      15A    Medicaid funds recovered attributable to the project                             $0                  $0                   $0                 $0
      15B    Savings to beneficiaries attributable to the project                              $0                  $0                 $0                    $0
   15C       Other savings attributable to the project                                         $0                  $0                 $0                    $0
TOTAL
     15      Total Medicaid funds, beneficiary savings, and other savings                      $0                  $0                 $0                    $0
14 + 15      Total savings attributable to the project                                         $0                  $0                 $0                    $0




2
    Performance measures 3 through 11 reflect results from April through September 2004 not previous reported to OIG.
                                                                                                                                                       50
 A P P E N D           I X ~ D 




          Michigan - Area Agencies on Aging Association of Michigan, Lansing                           In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            7              2               5                   3
     2    Number of new volunteers trained                                        35             13              22                   9
     3    Number of media events conducted                                        11             10               1                  -9
     4    Number of community education events conducted                          58             50               8                 -42
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                                    15               0                 -15
                                                                                  15
     6    Number of group sessions for beneficiaries led by volunteers            67             44              23                 -21
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           2,974           1,829           1,145               -684
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          24              11              13                  2
  7+8     Total number of beneficiaries educated                               2,998           1,840           1,158               -682
     9    Estimated number of people reached by media events                      NA       1,070,771          10,000                 NA
    10    Estimated number of people reached by community education
          events                                                                 898            475             423                 -52
    11    Number of complaints received attributable to the project               11             11               0                 -11
    12    Number of complaints referred for followup                               2              2               0                  -2
    13    Number of complaints that resulted in some action                        1              1               0                  -1
    14    Medicare funds recovered attributable to the project                    $0             $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                  $299           $299              $0               -$299
   15C    Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $299           $299              $0               -$299
14 + 15   Total savings attributable to the project                             $299           $299              $0               -$299




                                                                                                                                  51
 A P P E N D           I X ~ D 



                        Minnesota - Minnesota Board of Aging, St. Paul                                 In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           20              4              16                  12
     2    Number of new volunteers trained                                       109             65              44                 -21
     3    Number of media events conducted                                        12             10               2                  -8
     4    Number of community education events conducted                         277            212              65                -147
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     11              3               8                   5
     6    Number of group sessions for beneficiaries led by volunteers            41             34               7                 -27
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             312             61             251                 190
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          18              7              11                   4
  7+8     Total number of beneficiaries educated                                 330             68             262                 194
     9    Estimated number of people reached by media events                      NA         979,687           5,500                 NA
    10    Estimated number of people reached by community education
          events                                                               14037          11,965           2,072              -9,893
    11    Number of complaints received attributable to the project               45              14              31                  17
    12    Number of complaints referred for followup                              34              11              23                  12
    13    Number of complaints that resulted in some action                       10               9               1                  -8
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project              $133,592         $31,452        $102,140            $70,688
   15C    Other savings attributable to the project                          $27,642         $27,642              $0           -$27,642
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings      $161,234         $59,094        $102,140            $43,046
14 + 15   Total savings attributable to the project                         $161,234         $59,094        $102,140            $43,046




                                                                                                                                  52
 A P P E N D           I X ~ D 



           Mississippi - Mississippi Department of Human Services, Jackson                             In operation since: July 2000
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           48              33             15                  -18
     2    Number of new volunteers trained                                       289             262             27                 -235
     3    Number of media events conducted                                     2,537           1,910            627               -1,283
     4    Number of community education events conducted                         246             170             76                  -94
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     78             63              15                 -48
     6    Number of group sessions for beneficiaries led by volunteers           551            445             106                -339
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           9,717           7,772           1,945              -5,827
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       2,189           1,882             307              -1,575
  7+8     Total number of beneficiaries educated                              11,906           9,654           2,252              -7,402
     9    Estimated number of people reached by media events                      NA         953,075         391,065                 NA
    10    Estimated number of people reached by community education
          events                                                              30,641          25,724           4,917             -20,807
    11    Number of complaints received attributable to the project              144              85              59                 -26
    12    Number of complaints referred for followup                              14               0              14                  14
    13    Number of complaints that resulted in some action                        0               0               0                   0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  53
 A P P E N D           I X ~ D 




                 Missouri - District III Area Agency on Aging, Warrensburg                             In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            9              8               1                  -7
     2    Number of new volunteers trained                                        96             90               6                 -84
     3    Number of media events conducted                                        22              9              13                   4
     4    Number of community education events conducted                          38              8              30                  22
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     96             90               6                 -84
     6    Number of group sessions for beneficiaries led by volunteers            47             38               9                 -29
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,355           1,164            191                -973
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         191              81            110                  29
  7+8     Total number of beneficiaries educated                               1,546           1,245            301                -944
     9    Estimated number of people reached by media events                      NA         271,500         300,000                 NA
    10    Estimated number of people reached by community education
          events                                                               3,400           1,000           2,400              1,400
    11    Number of complaints received attributable to the project               13               5               8                  3
    12    Number of complaints referred for followup                               8               5               3                 -2
    13    Number of complaints that resulted in some action                        2               0               2                  2
    14    Medicare funds recovered attributable to the project                   $58              $0             $58                $58
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                  $887           $887              $0               -$887
   15C    Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $887           $887              $0               -$887
14 + 15   Total savings attributable to the project                             $945           $887             $58               -$829




                                                                                                                                  54
 A P P E N D           I X ~ D 


                         Montana - Missoula Aging Services, Missoula                                   In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           13               4              9                    5
     2    Number of new volunteers trained                                        56               8             48                   40
     3    Number of media events conducted                                     6,758           6,301            457               -5,844
     4    Number of community education events conducted                          93              66             27                  -39
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     32             24               8                 -16
     6    Number of group sessions for beneficiaries led by volunteers           237            139              98                 -41
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           7,197           3,904           3,293               -611
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       2,468             769           1,699                930
  7+8     Total number of beneficiaries educated                               9,665           4,673           4,992                319
     9    Estimated number of people reached by media events                      NA         917,621         730,757                 NA
    10    Estimated number of people reached by community education
          events                                                              11,263           6,903           4,360              -2,543
    11    Number of complaints received attributable to the project              160             110              50                 -60
    12    Number of complaints referred for followup                              64              14              50                  36
    13    Number of complaints that resulted in some action                        5               0               5                   5
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                  $420             $0            $420                $420
   15C    Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $420             $0            $420                $420
14 + 15   Total savings attributable to the project                             $420             $0            $420                $420




                                                                                                                                  55
 A P P E N D           I X ~ D 




      Nebraska - Nebraska Department of Health and Human Services, Lincoln                             In operation since: July 2000
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            7              3               4                    1
     2    Number of new volunteers trained                                        30             11              19                    8
     3    Number of media events conducted                                       105             81              24                  -57
     4    Number of community education events conducted                         130             62              68                    6
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     63             34              29                    -5
     6    Number of group sessions for beneficiaries led by volunteers           175             67             108                    41
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           5,288           1,938           3,350              1,412
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         591             234             357                123
  7+8     Total number of beneficiaries educated                               5,879           2,172           3,707              1,535
     9    Estimated number of people reached by media events                      NA       2,849,444         624,811                 NA
    10    Estimated number of people reached by community education
          events                                                              32,832          23,466           9,366             -14,100
    11    Number of complaints received attributable to the project               23              11              12                   1
    12    Number of complaints referred for followup                              11               4               7                   3
    13    Number of complaints that resulted in some action                       10               4               6                   2
    14    Medicare funds recovered attributable to the project                 $534               $0           $534                $534
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                  $134             $0            $134                $134
   15C    Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $134             $0            $134                $134
14 + 15   Total savings attributable to the project                             $668             $0            $668                $668




                                                                                                                                  56
 A P P E N D           I X ~ D 



                  Nevada - Nevada Division of Aging Services, Las Vegas                                In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            7              4               3                    -1
     2    Number of new volunteers trained                                         4              1               3                     2
     3    Number of media events conducted                                        18             12               6                    -6
     4    Number of community education events conducted                          37             20              17                    -3
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      3              0               3                     3
     6    Number of group sessions for beneficiaries led by volunteers            25             14              11                    -3
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,260           1,050            210                -840
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          77              12             65                  53
  7+8     Total number of beneficiaries educated                               1,337           1,062            275                -787
     9    Estimated number of people reached by media events                      NA         135,000           6,000                 NA
    10    Estimated number of people reached by community education
          events                                                              14,525          10,455           4,070              -6,385
    11    Number of complaints received attributable to the project               66              55              11                 -44
    12    Number of complaints referred for followup                              12              11               1                 -10
    13    Number of complaints that resulted in some action                        1               0               1                   1
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                  $200             $0            $200                $200
   15C    Other savings attributable to the project                             $900             $0            $900                $900
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings        $1,100             $0           $1,100             $1,100
14 + 15   Total savings attributable to the project                           $1,100             $0           $1,100             $1,100




                                                                                                                                  57
 A P P E N D           I X ~ D 




 New Hampshire - New Hampshire Division of Elderly and Adult Services, Concord                         In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            1              1               0                  -1
     2    Number of new volunteers trained                                        39             36               3                 -33
     3    Number of media events conducted                                        34             16              18                   2
     4    Number of community education events conducted                         130             52              78                  26
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      6              5               1                  -4
     6    Number of group sessions for beneficiaries led by volunteers            55             48               7                 -41
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,548           1,174            374                -800
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       4,694           2,813           1,881                -932
  7+8     Total number of beneficiaries educated                               6,242           3,987           2,255              -1,732
     9    Estimated number of people reached by media events                      NA         300,000         300,000                 NA
    10    Estimated number of people reached by community education
          events                                                              21,000          10,800          10,200               -600
    11    Number of complaints received attributable to the project               30              25               5                -20
    12    Number of complaints referred for followup                               0               0               0                  0
    13    Number of complaints that resulted in some action                        0               0               0                  0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  58
 A P P E N D           I X ~ D 




    New Jersey - Jewish Family & Vocational Services of Middlesex County, Inc.,
                                                                                                      In operation since: July 2001
                                     Edison
                                                                          Total for       January     July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June    December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            1              1              0                  -1
     2    Number of new volunteers trained                                        35             35              0                 -35
     3    Number of media events conducted                                         3              0              3                   3
     4    Number of community education events conducted                          22             10             12                   2
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      3              3              0                    -3
     6    Number of group sessions for beneficiaries led by volunteers           132             64             68                     4
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           8,236          4,291           3,945               -346
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         400            150             250                100
  7+8     Total number of beneficiaries educated                               8,636          4,441           4,195               -246
     9    Estimated number of people reached by media events                      NA              0         750,000                 NA
    10    Estimated number of people reached by community education
          events                                                              14,600          5,750           8,850              3,100
    11    Number of complaints received attributable to the project               63             19              44                 25
    12    Number of complaints referred for followup                               2              0               2                  2
    13    Number of complaints that resulted in some action                        0              0               0                  0
    14    Medicare funds recovered attributable to the project                    $0             $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0             $0                    $0
   15C    Other savings attributable to the project                               $0             $0             $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0             $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0             $0                    $0




                                                                                                                                 59
 A P P E N D           I X ~ D 




               New Mexico - New Mexico State Agency on Aging, Santa Fe                                 In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           38             14              24                    10
     2    Number of new volunteers trained                                        29             15              14                    -1
     3    Number of media events conducted                                        24              9              15                     6
     4    Number of community education events conducted                         161             56             105                    49
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     29             15              14                    -1
     6    Number of group sessions for beneficiaries led by volunteers           135             38              97                    59
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           8,822           1,140           7,682              6,542
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                      32,931          14,974          17,957              2,983
  7+8     Total number of beneficiaries educated                              41,753          16,114          25,639              9,525
     9    Estimated number of people reached by media events                      NA         325,000         494,000                 NA
    10    Estimated number of people reached by community education
          events                                                              65,736         18,715           47,021             28,306
    11    Number of complaints received attributable to the project            2,954             42            2,912              2,870
    12    Number of complaints referred for followup                              84             30               54                 24
    13    Number of complaints that resulted in some action                       84             39               45                  6
    14    Medicare funds recovered attributable to the project                    $0             $0               $0                 $0
   15A    Medicaid funds recovered attributable to the project              $200,000       $200,000               $0          -$200,000
   15B    Savings to beneficiaries attributable to the project               $85,414         $85,414             $0            -$85,414
   15C    Other savings attributable to the project                               $0              $0             $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings      $285,414       $285,414              $0           -$285,414
14 + 15   Total savings attributable to the project                         $285,414       $285,414              $0           -$285,414




                                                                                                                                  60
 A P P E N D           I X ~ D 




                  New York – New York State Office for the Aging, Albany                               In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           84             56              28                 -28
     2    Number of new volunteers trained                                       956            264             692                 428
     3    Number of media events conducted                                        80             63              17                 -46
     4    Number of community education events conducted                         148            115              33                 -82
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                    676            420             256                -164
     6    Number of group sessions for beneficiaries led by volunteers           204            145              59                 -86
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           5,278           3,393           1,885              -1,508
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                      11,034           5,593           5,441                -152
  7+8     Total number of beneficiaries educated                              16,312           8,986           7,326              -1,660
     9    Estimated number of people reached by media events                      NA         452,700         252,000                 NA
    10    Estimated number of people reached by community education
          events                                                              22,616          15,501           7,115              -8,386
    11    Number of complaints received attributable to the project              418             218             200                 -18
    12    Number of complaints referred for followup                             100              36              64                  28
    13    Number of complaints that resulted in some action                      234              34             200                 166
    14    Medicare funds recovered attributable to the project               $44,691         $22,005         $22,686               $681
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0              $0              $0                 $0
14 + 15   Total savings attributable to the project                          $44,691         $22,005         $22,686               $681




                                                                                                                                  61
 A P P E N D           I X ~ D 



                      North Carolina - Department of Insurance, Raleigh                                In operation since: July 2003
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           18             16               2                 -14
     2    Number of new volunteers trained                                        81             75               6                 -69
     3    Number of media events conducted                                        24             14              10                  -4
     4    Number of community education events conducted                          82             55              27                 -28
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      7              4               3                    -1
     6    Number of group sessions for beneficiaries led by volunteers            30             15              15                     0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,056            391             665                 274
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          25             17               8                  -9
  7+8     Total number of beneficiaries educated                               1,081            408             673                 265
     9    Estimated number of people reached by media events                      NA         231,218          44,300                 NA
    10    Estimated number of people reached by community education
          events                                                              15,186          12,496           2,690              -9,806
    11    Number of complaints received attributable to the project               93              72              21                 -51
    12    Number of complaints referred for followup                              13              10               3                  -7
    13    Number of complaints that resulted in some action                        2               2               0                  -2
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                  $150           $150              $0               -$150
   15C    Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $150           $150              $0               -$150
14 + 15   Total savings attributable to the project                             $150           $150              $0               -$150




                                                                                                                                  62
 A P P E N D           I X ~ D 



            North Dakota - Legal Assistance of North Dakota, Inc., Bismarck                            In operation since: July 2003
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           11             10               1                  -9
     2    Number of new volunteers trained                                        64             57               7                 -50
     3    Number of media events conducted                                        46             14              32                  18
     4    Number of community education events conducted                          16              2              14                  12
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     14             10               4                     6
     6    Number of group sessions for beneficiaries led by volunteers             4              0               4                     4
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             116              0             116                 116
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          30             20              10                 -10
  7+8     Total number of beneficiaries educated                                 146             20             126                 106
     9    Estimated number of people reached by media events                      NA         100,000          27,450                 NA
    10    Estimated number of people reached by community education
          events                                                               2,726            141            2,585              2,444
    11    Number of complaints received attributable to the project                0              0                0                  0
    12    Number of complaints referred for followup                               0              0                0                  0
    13    Number of complaints that resulted in some action                        0              0                0                  0
    14    Medicare funds recovered attributable to the project                    $0             $0               $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0               $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  63
 A P P E N D           I X ~ D 



                   Ohio - Central Ohio Area Agency on Aging, Columbus                                  In operation since: July 2002
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            1              0               1                   1
     2    Number of new volunteers trained                                        18              0              18                  18
     3    Number of media events conducted                                       340            165             175                  10
     4    Number of community education events conducted                         253            203              50                -153
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     38              9              29                    20
     6    Number of group sessions for beneficiaries led by volunteers            78             40              38                    -2
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,693            985             708                -277
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         864             236             628                392
  7+8     Total number of beneficiaries educated                               2,557           1,221           1,336                115
     9    Estimated number of people reached by media events                      NA       1,205,879         650,000                 NA
    10    Estimated number of people reached by community education
          events                                                              74,259          64,259          10,000             -54,259
    11    Number of complaints received attributable to the project               10               7               3                  -4
    12    Number of complaints referred for followup                               9               7               2                  -5
    13    Number of complaints that resulted in some action                        1               0               1                   1
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  64
 A P P E N D           I X ~ D 



                                Ohio - Pro Seniors, Inc., Cincinnati                                   In operation since: July 2002
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            1              1               0                  -1
     2    Number of new volunteers trained                                         7              7               0                  -7
     3    Number of media events conducted                                     1,183            627             556                 -71
     4    Number of community education events conducted                          41             26              15                 -11
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      7              7               0                  -7
     6    Number of group sessions for beneficiaries led by volunteers            98             57              41                 -16
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           2,333           1,375            958                -417
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          41              19             22                   3
  7+8     Total number of beneficiaries educated                               2,374           1,394            980                -414
     9    Estimated number of people reached by media events                      NA       3,133,121       3,123,413                 NA
    10    Estimated number of people reached by community education
          events                                                               4,039            703            3,336              2,633
    11    Number of complaints received attributable to the project                7              4                3                 -1
    12    Number of complaints referred for followup                               0              0                0                  0
    13    Number of complaints that resulted in some action                        0              0                0                  0
    14    Medicare funds recovered attributable to the project                    $0             $0               $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0               $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  65
 A P P E N D           I X ~ D 




          Oklahoma - State of Oklahoma Insurance Department, Oklahoma City                             In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           11             10               1                  -9
     2    Number of new volunteers trained                                       241            237               4                -233
     3    Number of media events conducted                                       915              9             906                 897
     4    Number of community education events conducted                          79             32              47                  15
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     11             11               0                 -11
     6    Number of group sessions for beneficiaries led by volunteers            11             11               0                 -11
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             200            200               0                -200
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          10             10               0                 -10
  7+8     Total number of beneficiaries educated                                 210            210               0                -210
     9    Estimated number of people reached by media events                      NA         307,005         271,000                 NA
    10    Estimated number of people reached by community education
          events                                                              14,014           9,317           4,697              -4,620
    11    Number of complaints received attributable to the project               18               5              13                   8
    12    Number of complaints referred for followup                               9               5               4                  -1
    13    Number of complaints that resulted in some action                        0               0               0                   0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  66
 A P P E N D           I X ~ D 



                       Oregon – Senior Medicare Patrol Project, Salem                                  In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           20             16               4                  -12
     2    Number of new volunteers trained                                       121             71              50                  -21
     3    Number of media events conducted                                        23             20               3                  -17
     4    Number of community education events conducted                         132             93              39                  -54
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                    121             71              50                  -21
     6    Number of group sessions for beneficiaries led by volunteers           117             76              41                  -35
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                          13,258          12,442            816              -11,626
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       2,546             285           2,261               1,976
  7+8     Total number of beneficiaries educated                              15,804          12,727           3,077              -9,650
     9    Estimated number of people reached by media events                      NA       3,209,414          23,000                 NA
    10    Estimated number of people reached by community education
          events                                                               5,609            994            4,615              3,621
    11    Number of complaints received attributable to the project                4              0                4                  4
    12    Number of complaints referred for followup                               0              0                0                  0
    13    Number of complaints that resulted in some action                        4              0                4                  4
    14    Medicare funds recovered attributable to the project                    $0             $0               $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0               $0                 $0
   15B    Savings to beneficiaries attributable to the project                  $808           $808              $0               -$808
   15C    Other savings attributable to the project                               $0             $0              $0                  $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $808           $808              $0               -$808
14 + 15   Total savings attributable to the project                             $808           $808              $0               -$808




                                                                                                                                  67
 A P P E N D           I X ~ D 



   Pennsylvania - Center for Advocacy for the Rights and Interests of the Elderly,
                                                                                                       In operation since: July 1997
                                  Philadelphia
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            2              1               1                     0
     2    Number of new volunteers trained                                        12              5               7                     2
     3    Number of media events conducted                                        12              8               4                    -4
     4    Number of community education events conducted                          68             21              47                    26
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      8              5               3                  -2
     6    Number of group sessions for beneficiaries led by volunteers           269            166             103                 -63
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                          14,843          11,876           2,967              -8,909
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         608             471             137                -334
  7+8     Total number of beneficiaries educated                              15,451          12,347           3,104              -9,243
     9    Estimated number of people reached by media events                      NA       1,106,210         200,000                 NA
    10    Estimated number of people reached by community education
          events                                                              12,669           1,226          11,443             10,217
    11    Number of complaints received attributable to the project              486             338             148               -190
    12    Number of complaints referred for followup                               9               6               3                 -3
    13    Number of complaints that resulted in some action                        3               3               0                 -3
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                $8,422             $0           $8,422             $8,422
   15C    Other savings attributable to the project                               $0             $0               $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings        $8,422             $0           $8,422             $8,422
14 + 15   Total savings attributable to the project                           $8,422             $0           $8,422             $8,422




                                                                                                                                  68
 A P P E N D           I X ~ D 



               Puerto Rico - Governor's Office of Elderly Affairs, San Juan                            In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            9              4               5                   1
     2    Number of new volunteers trained                                        21              6              15                   9
     3    Number of media events conducted                                       497            491               6                -485
     4    Number of community education events conducted                          51             22              29                   7
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      3              2               1                  -1
     6    Number of group sessions for beneficiaries led by volunteers           135             77              58                 -19
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           3,966           2,172           1,794               -378
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         684             360             324                -36
  7+8     Total number of beneficiaries educated                               4,650           2,532           2,118               -414
     9    Estimated number of people reached by media events                      NA       1,055,300         425,000                 NA
    10    Estimated number of people reached by community education
          events                                                               3,318           1,167           2,151                984
    11    Number of complaints received attributable to the project              100              35              65                 30
    12    Number of complaints referred for followup                              71              27              44                 17
    13    Number of complaints that resulted in some action                       12               3               9                  6
    14    Medicare funds recovered attributable to the project                $2,549          $1,139          $1,410               $271
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0              $0              $0                 $0
14 + 15   Total savings attributable to the project                           $2,549          $1,139          $1,410               $271




                                                                                                                                  69
 A P P E N D           I X ~ D 


                          Rhode Island – Aging 2000, Inc., Providence                                  In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            1               0               1                  1
     2    Number of new volunteers trained                                         2               0               2                  2
     3    Number of media events conducted                                     2,508           1,281           1,227                -54
     4    Number of community education events conducted                          13               7               6                 -1
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      2              0               2                   2
     6    Number of group sessions for beneficiaries led by volunteers            37             27              10                 -17
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             617            405             212                -193
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                           0              0               0                   0
  7+8     Total number of beneficiaries educated                                 617            405             212                -193
     9    Estimated number of people reached by media events                      NA       6,300,000       7,000,000                 NA
    10    Estimated number of people reached by community education
          events                                                              26,000          15,000          11,000              -4,000
    11    Number of complaints received attributable to the project               12               7               5                  -2
    12    Number of complaints referred for followup                               9               5               4                  -1
    13    Number of complaints that resulted in some action                        0               0               0                   0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  70
 A P P E N D           I X ~ D 



          South Carolina - Department of Health and Human Services, Columbia                           In operation since: July 2000
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            5              4               1                  -3
     2    Number of new volunteers trained                                        17             15               2                 -13
     3    Number of media events conducted                                        15              2              13                  11
     4    Number of community education events conducted                          35             11              24                  13
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      0              0               0                   0
     6    Number of group sessions for beneficiaries led by volunteers           158             94              64                 -30
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           4,244           2,464           1,780               -684
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         107               7             100                 93
  7+8     Total number of beneficiaries educated                               4,351           2,471           1,880               -591
     9    Estimated number of people reached by media events                      NA          51,091          16,729                 NA
    10    Estimated number of people reached by community education
          events                                                               8,157           3,950           4,207                257
    11    Number of complaints received attributable to the project                3               1               2                  1
    12    Number of complaints referred for followup                               3               1               2                  1
    13    Number of complaints that resulted in some action                        1               1               0                 -1
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  71
 A P P E N D           I X ~ D 



           South Dakota - East River Legal Services Corporation, Sioux Falls                           In operation since: July 2000
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            1              0               1                   1
     2    Number of new volunteers trained                                         2              0               2                   2
     3    Number of media events conducted                                        15             13               2                 -11
     4    Number of community education events conducted                          78             63              15                 -48
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     11              5               6                     1
     6    Number of group sessions for beneficiaries led by volunteers             9              6               3                    -3
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             670            320             350                    30
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         286            162             124                 -38
  7+8     Total number of beneficiaries educated                                 956            482             474                  -8
     9    Estimated number of people reached by media events                      NA           1,151          14,184                 NA
    10    Estimated number of people reached by community education
          events                                                               2,239           1,859            380               -1,479
    11    Number of complaints received attributable to the project                5               0              5                    5
    12    Number of complaints referred for followup                               0               0              0                    0
    13    Number of complaints that resulted in some action                        0               0              0                    0
    14    Medicare funds recovered attributable to the project                    $0              $0             $0                   $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0             $0                   $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  72
 A P P E N D           I X ~ D 




          Tennessee - Upper Cumberland Development District/AAA, Cookeville                            In operation since: July 2001
                                                                          Total for       January      July through   Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December          Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           13              3              10                  7
     2    Number of new volunteers trained                                        94             55              39                -16
     3    Number of media events conducted                                       102             49              53                  4
     4    Number of community education events conducted                         228            107             121                 14
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     71             55              16                -39
     6    Number of group sessions for beneficiaries led by volunteers           243            120             123                  3
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                          16,091           7,585          8,506                921
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       1,212             169          1,043                874
  7+8     Total number of beneficiaries educated                              17,303           7,754          9,549              1,795
     9    Estimated number of people reached by media events                      NA       3,640,893        727,526                 NA
    10    Estimated number of people reached by community education
          events                                                              63,211          17,644         45,567             27,923
    11    Number of complaints received attributable to the project               46              32             14                -18
    12    Number of complaints referred for followup                              32              24              8                -16
    13    Number of complaints that resulted in some action                       10               7              3                 -4
    14    Medicare funds recovered attributable to the project                  $114           $114              $0              -$114
   15A    Medicaid funds recovered attributable to the project                    $0              $0             $0                 $0
   15B    Savings to beneficiaries attributable to the project                  $265             $0            $265               $265
   15C    Other savings attributable to the project                               $0             $0              $0                 $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings          $265             $0            $265               $265
14 + 15   Total savings attributable to the project                             $379           $114            $265               $151




                                                                                                                                 73
 A P P E N D           I X ~ D 



            Texas - Better Business Bureau Education Foundation, Houston                               In operation since: July 2002
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            0              0               0                   0
     2    Number of new volunteers trained                                         0              0               0                   0
     3    Number of media events conducted                                         7              3               4                   1
     4    Number of community education events conducted                         231             64             167                 103
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      0              0               0                   0
     6    Number of group sessions for beneficiaries led by volunteers            24             17               7                 -10
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             860            721             139                -582
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          33             28               5                 -23
  7+8     Total number of beneficiaries educated                                 893            749             144                -605
     9    Estimated number of people reached by media events                      NA         200,000          27,038                 NA
    10    Estimated number of people reached by community education
          events                                                               5,820           2,885           2,935                 50
    11    Number of complaints received attributable to the project               55              35              20                -15
    12    Number of complaints referred for followup                              36              28               8                -20
    13    Number of complaints that resulted in some action                       16              13               3                -10
    14    Medicare funds recovered attributable to the project               $19,888         $18,926           $962            -$17,964
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0              $0             $0                  $0
14 + 15   Total savings attributable to the project                          $19,888         $18,926           $962            -$17,964




                                                                                                                                  74
 A P P E N D           I X ~ D 




             Texas - The National Hispanic Council on Aging, Corpus Christi                            In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           50             42               8                 -34
     2    Number of new volunteers trained                                       136             53              83                  30
     3    Number of media events conducted                                        40             14              26                  12
     4    Number of community education events conducted                         104             78              26                 -52
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     17             17               0                 -17
     6    Number of group sessions for beneficiaries led by volunteers            65             40              25                 -15
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           3,320           1,670           1,650                -20
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         480             364             116               -248
  7+8     Total number of beneficiaries educated                               3,800           2,034           1,766               -268
     9    Estimated number of people reached by media events                      NA         653,000       2,300,000                 NA
    10    Estimated number of people reached by community education
          events                                                              10,115           2,745           7,370              4,625
    11    Number of complaints received attributable to the project              144              86              58                -28
    12    Number of complaints referred for followup                              32              26               6                -20
    13    Number of complaints that resulted in some action                       35              34               1                -33
    14    Medicare funds recovered attributable to the project                   $65              $0             $65                $65
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                  $0
14 + 15   Total savings attributable to the project                              $65             $0             $65                 $65




                                                                                                                                  75
 A P P E N D           I X ~ D 



                            Utah - Utah Legal Services, Salt Lake City                                 In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           25              6              19                  13
     2    Number of new volunteers trained                                       464            288             176                -112
     3    Number of media events conducted                                        11              2               9                   7
     4    Number of community education events conducted                          67             37              30                  -7
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                    401            345              56                -289
     6    Number of group sessions for beneficiaries led by volunteers            64             26              38                  12
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           1,720           1,015            705                -310
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                         872             455             417                -38
  7+8     Total number of beneficiaries educated                               2,592           1,470           1,122               -348
     9    Estimated number of people reached by media events                      NA            300            3,227                 NA
    10    Estimated number of people reached by community education
          events                                                               8,526           1,496           7,030              5,534
    11    Number of complaints received attributable to the project               54              40              14                -26
    12    Number of complaints referred for followup                              32              16              16                  0
    13    Number of complaints that resulted in some action                        8               4               4                  0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                $1,151          $1,151             $0              -$1,151
   15C    Other savings attributable to the project                           $1,395          $1,395             $0              -$1,395
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings        $2,546          $2,546             $0              -$2,546
14 + 15   Total savings attributable to the project                           $2,546          $2,546             $0              -$2,546




                                                                                                                                  76
 A P P E N D           I X ~ D 


                    Vermont - Community of Vermont Elders, Montpelier                                     In operation since: July 2003
                                                                          Total for          January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004           through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            4                 2               2                     0
     2    Number of new volunteers trained                                        24                 5              19                    14
     3    Number of media events conducted                                        10                 4               6                     2
     4    Number of community education events conducted                          50                28              22                    -6
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                         0              0               0                     0
     6    Number of group sessions for beneficiaries led by volunteers                0              0               0                     0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                  0              0               0                     0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                              0              0               0                     0
  7+8     Total number of beneficiaries educated                                      0              0               0                     0
     9    Estimated number of people reached by media events                      NA            193,000         134,204                 NA
    10    Estimated number of people reached by community education
          events                                                               1,187               415             772                 357
    11    Number of complaints received attributable to the project                4                 1               3                   2
    12    Number of complaints referred for followup                               3                 1               2                   1
    13    Number of complaints that resulted in some action                        1                 1               0                  -1
    14    Medicare funds recovered attributable to the project                    $0                $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0                $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0                $0              $0                    $0
   15C    Other savings attributable to the project                               $0                $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0                $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0                $0              $0                    $0




                                                                                                                                     77
 A P P E N D           I X ~ D 


          Virginia - Virginia Association of Area Agencies on Aging, Richmond                              In operation since: July 1999
                                                                          Total for           January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004            through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            6                  4               2                   -2
     2    Number of new volunteers trained                                        34                 27               7                  -20
     3    Number of media events conducted                                        67                 28              39                   11
     4    Number of community education events conducted                         274                153             121                  -32
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      6                  4               2                   -2
     6    Number of group sessions for beneficiaries led by volunteers           113                 83              30                  -53
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                            4,385             3,921             464               -3,457
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                            0                 0               0                    0
  7+8     Total number of beneficiaries educated                                4,385             3,921             464               -3,457
     9    Estimated number of people reached by media events                      NA           1,274,413       1,475,200                 NA
    10    Estimated number of people reached by community education
          events                                                              43,156             38,862            4,294             -34,568
    11    Number of complaints received attributable to the project               49                 26               23                  -3
    12    Number of complaints referred for followup                              36                 22               14                  -8
    13    Number of complaints that resulted in some action                        2                  0                2                   2
    14    Medicare funds recovered attributable to the project                $1,520                 $0           $1,520              $1,520
   15A    Medicaid funds recovered attributable to the project                    $0                 $0               $0                  $0
   15B    Savings to beneficiaries attributable to the project                        $0             $0              $0                    $0
   15C    Other savings attributable to the project                                   $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0                 $0               $0                 $0
14 + 15   Total savings attributable to the project                           $1,520                 $0           $1,520             $1,520




                                                                                                                                      78
 A P P E N D           I X ~ D 


                 Washington - Office of the Insurance Counselor, Olympia                               In operation since: July 1999
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers          366            162             204                  42
     2    Number of new volunteers trained                                       352            268              84                -184
     3    Number of media events conducted                                       207            124              83                 -41
     4    Number of community education events conducted                          94             45              49                   4
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                    352            268              84                -184
     6    Number of group sessions for beneficiaries led by volunteers           421            289             132                -157
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                          18,279          12,000           6,279              -5,721
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                      52,815          29,636          23,179              -6,457
  7+8     Total number of beneficiaries educated                              71,094          41,636          29,458             -12,178
     9    Estimated number of people reached by media events                      NA       5,488,404         920,721                 NA
    10    Estimated number of people reached by community education
          events                                                              23,503          13,415          10,088              -3,327
    11    Number of complaints received attributable to the project               15               5              10                   5
    12    Number of complaints referred for followup                               6               3               3                   0
    13    Number of complaints that resulted in some action                        0               0               0                   0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                  $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                  $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  79
 A P P E N D           I X ~ D 



                         West Virginia - AARP Foundation, Charleston                                   In operation since: July 2003
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            2              1               1                   0
     2    Number of new volunteers trained                                        27             25               2                 -23
     3    Number of media events conducted                                        36              8              28                  20
     4    Number of community education events conducted                          41              8              33                  25
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      5              0               5                     5
     6    Number of group sessions for beneficiaries led by volunteers            10              0              10                    10
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             241              0             241                 241
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                           3              0               3                   3
  7+8     Total number of beneficiaries educated                                 244              0             244                 244
     9    Estimated number of people reached by media events                      NA       1,317,579       1,769,380                 NA
    10    Estimated number of people reached by community education
          events                                                                8728           3,360           5,368              2,008
    11    Number of complaints received attributable to the project                5               0               5                  5
    12    Number of complaints referred for followup                               2               0               2                  2
    13    Number of complaints that resulted in some action                        0               0               0                  0
    14    Medicare funds recovered attributable to the project                    $0              $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                    $0
14 + 15   Total savings attributable to the project                               $0             $0              $0                    $0




                                                                                                                                  80
 A P P E N D           I X ~ D 



               Wisconsin - Coalition of Wisconsin Aging Groups, Madison                                In operation since: July 1997
                                                                          Total for       January      July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June     December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers           11               8              3                   -5
     2    Number of new volunteers trained                                       138              89             49                  -40
     3    Number of media events conducted                                     1,226           1,160             66               -1,094
     4    Number of community education events conducted                          41              10             31                   21
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                     12              4               8                   4
     6    Number of group sessions for beneficiaries led by volunteers           129             77              52                 -25
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                           5,928           3,946           1,982              -1964
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                          52              13             39                  26
  7+8     Total number of beneficiaries educated                               5,980           3,959           2021               -1938
     9    Estimated number of people reached by media events                      NA       6,028,020          58,837                 NA
    10    Estimated number of people reached by community education
          events                                                              12,991           1,125          11,866             10,741
    11    Number of complaints received attributable to the project               52              30              22                 -8
    12    Number of complaints referred for followup                              13              11               2                 -9
    13    Number of complaints that resulted in some action                        5               4               1                 -3
    14    Medicare funds recovered attributable to the project                   $39             $39              $0               -$39
   15A    Medicaid funds recovered attributable to the project                    $0              $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0              $0                    $0
   15C    Other savings attributable to the project                               $0             $0              $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0              $0                  $0
14 + 15   Total savings attributable to the project                              $39            $39              $0                -$39




                                                                                                                                  81
 A P P E N D           I X ~ D 



             Wisconsin - Great Lakes Inter-Tribal Council, Lac du Flambeau                               In operation since: July 2003
                                                                          Total for          January     July through    Change in Last 6
                       PERFORMANCE MEASURES                                2004           through June    December           Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            2                 1              1                     0
     2    Number of new volunteers trained                                        58                 6             52                    46
     3    Number of media events conducted                                        13                 3             10                     7
     4    Number of community education events conducted                          40                22             18                    -4
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                         0              0              0                     0
     6    Number of group sessions for beneficiaries led by volunteers                0              0              0                     0
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                                  0              0              0                     0
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                              0              0              0                     0
  7+8     Total number of beneficiaries educated                                      0              0              0                     0
     9    Estimated number of people reached by media events                      NA               519           7,404                 NA
    10    Estimated number of people reached by community education
          events                                                               2,290               585           1,705              1,120
    11    Number of complaints received attributable to the project                0                 0               0                  0
    12    Number of complaints referred for followup                               0                 0               0                  0
    13    Number of complaints that resulted in some action                        0                 0               0                  0
    14    Medicare funds recovered attributable to the project                    $0                $0              $0                 $0
   15A    Medicaid funds recovered attributable to the project                    $0                $0              $0                 $0
   15B    Savings to beneficiaries attributable to the project                    $0                $0             $0                    $0
   15C    Other savings attributable to the project                               $0                $0             $0                    $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0                $0             $0                    $0
14 + 15   Total savings attributable to the project                               $0                $0             $0                    $0




                                                                                                                                    82
 A P P E N D           I X ~ D 



                     Wyoming - Wyoming Division on Aging, Cheyenne                                     In operation since: July 2000
                                                                          Total for       January       July through       Change in Last 6
                       PERFORMANCE MEASURES                                2004        through June      December              Months
                          OUTPUT MEASURES
     1    Number of training sessions conducted to train new volunteers            2              1                    1                     0
     2    Number of new volunteers trained                                        17             11                    6                    -5
     3    Number of media events conducted                                         7              4                    3                    -1
     4    Number of community education events conducted                          25             16                    9                    -7
                           OUTCOME MEASURES
     5    Number of volunteers who, for the first time, conducted
          activities to educate beneficiaries                                      7              5                    2                    -3
     6    Number of group sessions for beneficiaries led by volunteers            14              8                    6                    -2
     7    Number of beneficiaries who attended group sessions led by
          volunteers                                                             382            176               206                      30
     8    Number of one-on-one sessions held between beneficiaries
          and volunteers                                                       1,763             842              921                      79
  7+8     Total number of beneficiaries educated                               2,145           1,018            1,127                     109
     9    Estimated number of people reached by media events                      NA         105,015           55,330                      NA
    10    Estimated number of people reached by community education
          events                                                                 821            511               310                     -201
    11    Number of complaints received attributable to the project               19             15                 4                      -11
    12    Number of complaints referred for followup                               1              1                 0                       -1
    13    Number of complaints that resulted in some action                        1              1                 0                       -1
    14    Medicare funds recovered attributable to the project                    $0             $0                $0                       $0
   15A    Medicaid funds recovered attributable to the project                    $0             $0                $0                       $0
   15B    Savings to beneficiaries attributable to the project                    $0             $0                $0                      $0
   15C    Other savings attributable to the project                               $0             $0                $0                      $0
TOTAL
     15   Total Medicaid funds, beneficiary savings, and other savings            $0             $0                $0                      $0
14 + 15   Total savings attributable to the project                               $0             $0                $0                      $0




                                                                                                                                     83
